<html>
<title> - ENSURING SOUND SCIENCE AT EPA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                      ENSURING SOUND SCIENCE AT EPA

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             June 22, 2016

                               ----------                              

                           Serial No. 114-85

                               ----------                              

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




















                     ENSURING SOUND SCIENCE AT EPA

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 22, 2016

                               __________

                           Serial No. 114-85

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







       Available via the World Wide Web: http://science.house.gov






                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-914 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEPHEN KNIGHT, California           PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DRAIN LaHOOD, Illinois
WARREN DAVIDSON, Ohio



















                            C O N T E N T S

                             June 22, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     8
    Written Statement............................................    10

                               Witnesses:

Hon. Gina McCarthy, Administrator, U.S. Environmental Protection 
  Agency
    Oral Statement...............................................    12
    Written Statement............................................    14

Discussion.......................................................    18

             Appendix I: Answers to Post-Hearing Questions

Hon. Gina McCarthy, Administrator, U.S. Environmental Protection 
  Agency.........................................................    66

            Appendix II: Additional Material for the Record

Letter submitted by Representative Mo Brooks, Subcommittee on 
  Space, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    82

Documents submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    87

Letter submitted by Representative Bruce Westerman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   101

Letter submitted by Representative Lee Abraham, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   103

Letter submitted by Representative Randy Hultgren, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   108

Letters submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   110

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   114

 
                     ENSURING SOUND SCIENCE AT EPA

                              ----------                              


                        WEDNESDAY, JUNE 22, 2016

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 1:07 p.m., in Room 
2318, Rayburn House Office Building, Hon. Lamar Smith [Chairman 
of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    And welcome to today's hearing entitled ``Ensuring Sound 
Science at the EPA.''
    Before beginning our hearing, however, I'd like to welcome 
a new member of the Science, Space, and Technology Committee, 
Warren Davidson from Ohio's Eighth Congressional District. He 
won a special election two weeks ago to succeed John Boehner.
    Representative Davidson graduated from West Point and has 
an MBA from Notre Dame. He served in the Army in the 101st 
Airborne Division and as an Army Ranger. After his military 
service, he returned to Ohio and took a manufacturing company 
from 20 to 200 employees. He will be a member of the Space and 
Oversight Subcommittees. As the only member of the Science 
Committee from Ohio, he will be popular with the aerospace and 
energy R&D companies in his state. Please welcome Warren 
Davidson to the Science Committee.
    I'll now recognize myself for five minutes for an opening 
statement and then the Ranking Member.
    The Environmental Protection Agency has become an agency in 
pursuit of a purely political agenda rather than an agency that 
protects the environment. Little that the EPA has proposes 
would have any significant impact on the environment. But that 
hasn't stopped the EPA from imposing some of the most expensive 
and expansive regulations in its history.
    These rules will cost billions of dollars, place a heavy 
burden on American families, and diminish the ability of 
American businesses to compete around the world. EPA's 
political agenda is to rearrange the American economy, 
instituting ``command and control'' by the Obama 
Administration.
    This Committee's investigations have revealed an EPA that 
intentionally chooses to ignore good science. EPA cherry-picks 
the science that fits its agenda and ignores the science that 
does not support its position. When the science falls short, 
the EPA resorts to a propaganda campaign designed to mislead 
the public.
    Today's hearing will examine this unprecedented regulatory 
agenda and the manner in which the EPA has used suspect 
science, questionable legal interpretations, and flawed 
analysis to justify these regulations. A glaring example is the 
President's so-called Clean Power Plan. This plan is nothing 
more than a ``Power Grab'' to give the government more control 
over Americans' daily lives.
    This regulation stifles economic growth, destroys American 
jobs, and increases energy prices. That means costs will rise-
from electricity to gasoline to food, disproportionately 
hurting low-income Americans. Even EPA data shows that this 
regulation would reduce sea level rise by only 1/100 of an 
inch, the thickness of three sheets of paper. The Clean Power 
Plan represents massive costs without significant benefits. In 
other words, it's all pain and no gain.
    The President used this regulation as the cornerstone of 
his agenda at the Paris climate talks. The Paris agreement is a 
bad deal for the American people that will shrink our economy 
without any recognized benefit. Even if all 177 countries meet 
their promised reductions of carbon emissions for the next 85 
years, that will reduce temperatures by only one-sixth of one 
degree Celsius. That is incredible.
    For almost two years, the Committee requested to see the 
data EPA uses to justify Clean Air Act regulations. The EPA's 
refusal to provide all the data led the Science Committee to 
issue its first subpoena in 21 years to retrieve that 
information, and we are still waiting. What is the Obama 
Administration hiding?
    The Committee's investigation and oversight of the EPA's 
development of the Waters of the U.S. rule has revealed 
troubling and illegal agency activities. During the course of 
our investigation, the Committee found that the EPA engaged in 
inappropriate tactics to generate grassroots lobbying in 
support of this rule.
    This past December, the Government Accountability 
Organization issued a legal opinion that found that EPA 
violated both the Anti-Lobbying and Anti-Deficiency Acts.
    The EPA's relationship with activist environmental groups 
and use of questionable science does not end there. The 
Committee's investigation of the Agency's decision to embark on 
a premature and unprecedented decision to stop the Pebble Mine 
has shown that career EPA officials acted with blatant bias to 
determine the outcome. Also, these same officials intentionally 
used personal email to prevent the Committee and the EPA 
Inspector General from discovering the extent of their 
incriminating actions. This is just another unfortunate example 
of the EPA allowing politics rather than science to drive its 
agenda.
    Earlier this Congress, the House approved H.R. 1030, the 
Secret Science Reform Act. This legislation requires the EPA to 
base its regulations on publicly available data. Why would the 
EPA want to hide this data from the American people? Because 
either the data is science fiction or it doesn't exist.
    During the last year, several of EPA's major regulations 
have been halted by federal courts. These include the Agency's 
efforts to stop the Pebble Mine, the controversial Waters of 
the U.S. rule, and the Clean Power Plan. Many of these 
regulations trample on the constitutional rights of individuals 
and rely on suspect legal interpretations of the law.
    I hope the Administrator will tell us today how she intends 
to follow the law in writing regulations and when she will 
provide the American people with the data and other information 
that this committee has requested.
    [The prepared statement of Chairman Smith follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Eddie Bernice 
Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman. And before 
I begin my remarks, let me also welcome our new member and to 
tell him that I'm a product of St. Mary's and I graduated 
before you were born.
    And let me welcome Administrator McCarthy to today's 
hearing and express my deep appreciation for her distinguished 
public service. I look forward to her testimony.
    And, Mr. Chairman, the reason I'm here by myself on this 
side is that every other Democrat is on the House Floor 
awaiting a bill, because without a bill, there will be no 
break, the bill concerning gun violence.
    Based on previous committee hearings with EPA, I have 
little doubt that some members will try to argue today that EPA 
is an overzealous, job-killing agency that needs to be reined 
in, namely, the rhetoric we have heard from our majority 
colleagues throughout this entire Congress.
    Of course, the reality is far different. Administrator 
McCarthy, you and your dedicated agency staff have the noble 
and unenviable task of trying to protect human health and the 
environment in which we live and work from harm arising from 
many different sources. As such, your job is never truly done, 
and the ongoing nature of your work makes it easy for critics 
to find fault, with some arguing you're doing too much, some 
arguing you're doing too little.
    Let us be clear. The issues you--that underlie achieving 
these goals are complex, necessitating equally complex rules 
and regulations that require commitments and sacrifice from all 
involved parties to achieve a common benefit, a healthy 
environment. I am pleased that EPA continues to rise to this 
challenge and has developed regulations that are balanced and 
progressive, further illustrating that economic prosperity and 
environmental protection can go hand-in-hand. They're not 
mutually exclusive.
    Just in the last year, EPA has finalized the Clean Power 
Plan, the National Ambient Air Quality Standards, and its 
first-ever standards to reduce methane emissions from the oil 
and gas sector. While protecting public health, these 
regulations have also helped advance our efforts to limit the 
harmful effects of climate change. Actions taken by EPA have 
demonstrated America's intention to lead the world's effort to 
address climate change and have led to such a positive result 
as last December's Paris agreement.
    Mr. Chairman, I hope that this committee will take the 
opportunity today to give serious attention to Administrator 
McCarthy's testimony and examine what has actually been 
accomplished. It is an impressive record and one that this 
Congress should support. Unfortunately, that has not been this 
committee's approach to EPA's oversight in recent years. 
Instead, since the beginning of the current Congress alone, 
this committee has sent 28 oversight requests to EPA and has 
launched 12 separate EPA-related investigations. EPA has 
already delivered more than 15,000 documents consisting of 
139,000 pages to the Science Committee. I don't know where 
they're getting all these grocery carts to wheel it over here, 
with more document demands still outstanding, and I don't know 
where we're storing it once it gets here. And you can multiply 
these numbers by three to get the number of documents and pages 
provided to Congress as a whole over the same period.
    We're imposing an incredible burden on the hardworking men 
and women of EPA and spending a lot of taxpayers' dollars in 
the process to know--I don't know to what end. Does anybody 
read it when it gets here? The sum total result of all this 
committee oversight can be measured more in press releases that 
in any concrete findings that could justify the time and 
resources EPA has had to expend in trying to satisfy the 
majority's demands.
    I would hope that this committee will step back from the 
path it is on and not continue to engage in reflexive 
opposition to the efforts of an agency simply trying to carry 
out its statutory-mandated missions. While no agency is 
perfect, preventing EPA from doing its job at all is not good 
for the country and not a good use of time. Instead of trying 
to score political points through efforts to undercut EPA's 
important work, we should work together in a productive way to 
advance our economy, a cleaner environment, and a healthier 
world for humanity.
    Thank you. I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Smith. Thank you, Ms. Johnson.
    Our witness today is the Honorable Gina McCarthy, 
Administrator of the Environmental Protection Agency. Prior to 
her appointment as Administrator, she was the Assistant 
Administrator for EPA's Office of Air and Radiation. She also 
has served as the Commissioner of the Connecticut Department of 
Environmental Protection. During her career, which spans over 
30 years, she has worked at both the state and local levels on 
environmental issues and helped coordinate policies on energy, 
transportation, and the environment.
    Administrator McCarthy received a bachelor of arts degree 
in social anthropology from the University of Massachusetts and 
a master's of science and environmental health, engineering, 
and planning from Tufts University.
    We welcome you, Administrator, and look forward to your 
testimony.

           TESTIMONY OF THE HONORABLE GINA McCARTHY,

         ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thank you, Chairman Smith, and thank you, 
Ranking Member Johnson, for inviting me to testify today on 
EPA's regulatory efforts.
    The mission of EPA is to protect public health and the 
environment, and the Agency's regulatory efforts further those 
goals. We are guided in meeting these goals by science and by 
the law, which serves as the backbone of each of the Agency's 
actions. I'll focus my comments today on providing more detail 
for three rules, which we believe tremendously benefit public 
health, as well as the environment.
    Climate change is one of the greatest environmental and 
public health challenges that we all face. The most vulnerable 
among us--including children, older adults, people with heart 
and lung disease, and people living in poverty--may be the most 
at risk from the impacts of climate change. Fossil fuel-fired 
power plants are by far the largest source of U.S. CO<INF>2</INF> 
emissions. To address these emissions, EPA finalized the Clean 
Power Plan August 3 of 2015.
    While the Clean Power Plan has been stayed by the Supreme 
Court, we are confident it will be upheld because it rests on a 
strong foundation of science and the law. Since the stay was 
issued, many States have begun to move forward voluntarily to 
cut carbon pollution from power plants. They've also asked EPA 
to continue our outreach and development of supporting 
information that will help guide States when the Clean Power 
Plan becomes effective, which we are doing while ensuring that 
we fully comply with the stay.
    For example, last week, we proposed design details for the 
optional Clean Energy Incentive Program to address States' 
request for additional clarification as they consider options 
to reduce their carbon footprint. In May, EPA announced steps 
to further reduce methane and other harmful air pollutants from 
new and modified sources in the oil and gas industry, along 
with a critical first step in tackling methane emissions from 
existing sources. These steps will help combat climate change 
and reduce harmful air pollution.
    These standards build on the Agency's 2012 rules by adding 
requirements that the industry reduce emissions of greenhouse 
gases and by covering hydraulically fractured oil wells, along 
with additional equipment and activities that were not covered 
in the 2012 rules. They also require owners and operators to 
find and repair leaks, which can be a significant source of 
emissions.
    These final standards reflect significant stakeholder input 
and in particular provide companies a pathway to demonstrate 
that requirements under a State rule comparable to requirements 
in the final rule. This would allow sources to comply with the 
specific final rule requirement by complying with the State 
regulation.
    As a first step in the regulation of existing sources of 
methane from the oil and gas sector, we have announced an 
information collection request that, when finalized, will 
require companies with existing operations to provide 
information on technologies and costs that are critical to the 
development of reasonable and effective regulations. In 
addition, EPA plans to seek voluntary information on innovative 
strategies that can accurately and cost-effectively locate, 
measure, and mitigate methane emissions. The draft ICR was 
published on June 3, 2016, and the first two public comments 
for--periods will last for 60 days.
    Finally, in October 2015 the Agency completed the periodic 
review of the National Ambient Air Quality Standards, or NAAQS, 
for ground-level ozone. We have a primary standard directed at 
protecting public health and a secondary standard directed at 
protecting public welfare. Exposures to ground-level ozone can 
harm the respiratory system, aggravate asthma and lung disease, 
and is linked to premature death. These health impacts pose 
significant costs on Americans and can adversely affect their 
daily lives through missed school and work.
    The two-step process of a science-based NAAQS review, 
followed by implementation and a system that works, that is the 
process that we implement. That is the process the Congress 
outlined. EPA and State, local, and tribal co-regulators share 
a long history of successfully managing air quality. For ozone, 
existing and proposed federal measures like vehicle standards 
and power plant rules and reducing--are reducing and will 
continue to further reduce ozone pollution nationwide. We 
expect that the vast majority of counties outside of California 
will meet the 2015 ozone NAAQS by 2025 without having to take 
additional steps beyond these federal measures.
    So I again thank the Committee for inviting me to give a 
statement, as well as to be here today, and I look forward to 
continuing to work with you and to answer your questions on 
these and other EPA actions.
    [The prepared statement of Ms. McCarthy follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
        
    Chairman Smith. Okay. Thank you, Administrator McCarthy. 
And I'll recognize myself for questions.
    The first is this. The nonpartisan Energy Information 
Administration at the Department of Energy has found that the 
Clean Power Plan will reduce economic growth, increase 
electricity costs, and result in almost 400,000 jobs lost over 
the next 15 years. And all this is with very little impact on 
climate change itself. So why has the Obama Administration 
imposed this regulation on the American people?
    Ms. McCarthy. Well, let me just be clear if I could, Mr. 
Chairman. Our impact analysis that went with the rule indicated 
just the opposite of what you're saying.
    Chairman Smith. Right. So you----
    Ms. McCarthy. Let me answer the question----
    Chairman Smith. Okay. But--so you disagree with the Energy 
Information Administration of the Department of Energy?
    Ms. McCarthy. Well, it depends on what you're looking at, 
sir. I don't have it----
    Chairman Smith. Okay----
    Ms. McCarthy. --in front of me, but I will tell you that--
--
    Chairman Smith. --real quickly, let me repeat my question--
--
    Ms. McCarthy. Okay.
    Chairman Smith. --to make sure you----
    Ms. McCarthy. Sure.
    Chairman Smith. --address it. They said it would reduce 
economic growth, increase electricity cost, and cost almost 
400,000 jobs in the next 15 years. This is the Department of 
Energy. This is this Administration. This is the Energy 
Information Administration. So do you agree or disagree with 
their conclusions?
    Ms. McCarthy. Well, I believe that we have designed this 
rule, and it's showing out already that we are following the 
energy markets. We are not changing the direction in which the 
market is heading, and as a result, you're going to see this 
being delivered well--with additional short--small reduction 
over a very short period of time. You're going to see short 
reductions, but over the length of this rule, you are going to 
see significant reductions in greenhouse gases. But also, 
you're going to see cost savings on the energy side.
    Chairman Smith. Okay. It's clear you disagree with the 
Administration. I happen to think they're probably less biased 
than the EPA, and I think their conclusions that were reached 
probably represent closer to the facts, but we're going to have 
to agree----
    Ms. McCarthy. Well, I'm----
    Chairman Smith. --to disagree on that.
    Ms. McCarthy. --happy to take a look at it, Mr. Chairman. I 
don't know what the context of their analysis was.
    Chairman Smith. Okay. You are not familiar with the Energy 
Information Administration or you are?
    Ms. McCarthy. Very much so but----
    Chairman Smith. Okay. Have you read their----
    Ms. McCarthy. But they do----
    Chairman Smith. --report on the Clean Power Plan?
    Ms. McCarthy. In the past.
    Chairman Smith. Okay. And you disagree with that?
    Ms. McCarthy. I don't know what you just read, sir. I don't 
know which one it is----
    Chairman Smith. Okay.
    Ms. McCarthy. --so I'm happy to take a look.
    Chairman Smith. Well, again, reduce economic growth, 
increase electricity costs, and cost 400,000 jobs----
    Ms. McCarthy. Is----
    Chairman Smith. --over the next 15 years.
    Ms. McCarthy. That is exactly opposite of what we believe 
will happen based on our----
    Chairman Smith. Okay.
    Ms. McCarthy. --independent analysis.
    Chairman Smith. It's nice to have the Administration at war 
with itself. I'll go to my----
    Ms. McCarthy. No----
    Chairman Smith. --next question. If the Paris climate 
agreement involving 177 countries was completely implemented, 
okay, the entire climate agreement completely implemented, you 
have distinguished scientists including Bjorn Lomborg and 27 
other top climate scientists, including three Nobel laureates, 
who have concluded that the reduction in global warming would 
only be one-twentieth of a degree Celsius by 2030, one-sixth of 
a degrees Celsius in the next 85 years. It sounds to me like if 
they're anywhere close to being right, then this Paris Climate 
Agreement is almost all pain and no gain. Why is that not the 
case?
    Ms. McCarthy. Well, no, sir. The Paris agreement was an 
incredible achievement that changed the direction of the world 
and is going to ultimately----
    Chairman Smith. Do you disagree that----
    Ms. McCarthy. --allow us to have a better climate----
    Chairman Smith. Do you think the Paris Climate Agreement 
will have a greater impact on climate change than I just said 
and that these 27 scientists said?
    Ms. McCarthy. I think it sets us on it course to work 
together on a planetary scale to address the biggest----
    Chairman Smith. Well, I understand----
    Ms. McCarthy. --environmental challenge we face.
    Chairman Smith. --as far as the actual impact on climate 
change, do you disagree with these 27 top----
    Ms. McCarthy. I disagree with the way in which----
    Chairman Smith. --climate scientists?
    Ms. McCarthy. --you're characterizing it, Mr. Chairman. 
With all due respect, it is a tremendous step in the right 
direction.
    Chairman Smith. No, no----
    Ms. McCarthy. The numbers you're talking about----
    Chairman Smith. Those are----
    Ms. McCarthy. --are actually steps----
    Chairman Smith. I know those are wonderful words----
    Ms. McCarthy. --to be taken by 2020.
    Chairman Smith. I'm talking about quantifying the impact. 
The impact is one-sixth of a degree over the next 85 years if 
every country, all 177 countries----
    Ms. McCarthy. There is not a single----
    Chairman Smith. --implement it----
    Ms. McCarthy. Sir, there's not a single country that signed 
that expecting that the 2020 goals would get us where we need 
to be.
    Chairman Smith. Okay.
    Ms. McCarthy. It is a step in that direction, and it should 
provide us an opportunity----
    Chairman Smith. But you don't disagree with the 
conclusion----
    Ms. McCarthy. --to get the necessary reductions.
    Chairman Smith. --of these scientists as far as the climate 
agreement goes in Paris----
    Ms. McCarthy. I----
    Chairman Smith. --as it stands right now?
    Ms. McCarthy. The agreement itself was designed as a step 
forward.
    Chairman Smith. I understand.
    Ms. McCarthy. It was not designed to produce all of the 
actions----
    Chairman Smith. I understand but----
    Ms. McCarthy. --that will be necessary to address----
    Chairman Smith. --as far as the step forward goes----
    Ms. McCarthy. --the challenges.
    Chairman Smith. --the step forward is as I described it.
    Ms. McCarthy. Well, sir, you can't make a marathon without 
getting across the starting line.
    Chairman Smith. Okay. It's clear you don't disagree with 
their conclusion. You may think it's a beginning, but you can't 
disagree----
    Ms. McCarthy. I don't even know what----
    Chairman Smith. --with their conclusion?
    Ms. McCarthy. --their--the context of their conclusion is.
    Chairman Smith. Again----
    Ms. McCarthy. What I do know, sir, is that----
    Chairman Smith. --it's reducing global warming one-sixth of 
a degrees Celsius over the next 85 years.
    Ms. McCarthy. It's better than we were before, and it's 
only the first step. We've made a----
    Chairman Smith. One-sixth for all----
    Ms. McCarthy. We've made a long-term commitment to get to 
the reductions that are necessary----
    Chairman Smith. It all sounds to me----
    Ms. McCarthy. --to stabilize the----
    Chairman Smith. --like it's all pain and no gain, and I 
think that's--why punish the American people if we're not going 
to have any significant impact on climate change?
    Ms. McCarthy. We actually don't think it's punishment. I 
think it's about leadership and I think it's----
    Chairman Smith. Let me tell you, increase electricity 
costs, slow economic growth, and lost jobs is punishment----
    Ms. McCarthy. Our analysis shows that----
    Chairman Smith. --for the American people.
    Ms. McCarthy. --that is not the case with the Clean Power 
Plan. It provides----
    Chairman Smith. All right.
    Ms. McCarthy. --ultimate flexibility----
    Chairman Smith. Okay. It's you against all these other 
scientists----
    Ms. McCarthy. --and reduced energy.
    Chairman Smith. --and that's okay. My next question is 
this. With out major environmental regulations, we have seen 
reduction in carbon emissions in the United States through 
technological breakthroughs. For example, in the last 11 years 
there's been a 12 percent reduction in energy-related carbon 
emissions in the United States.
    Rather than impose costly government mandates and interfere 
with free market, why not encourage more technological advances 
that will reduce the cost of alternative fuels and so encourage 
their use? In other words, you're not going to convince 
developing countries to go to alternative forms of energy if 
you don't reduce the cost. It's not good for them; it's not 
good for their economy. So why not allow technology 
breakthroughs to solve the problem as they have throughout the 
history of the United States? Why engage in these government 
mandates to skew the market, cost jobs, and are burdensome to 
the American people?
    Ms. McCarthy. Well, sir, I don't think we're actually 
skewing the market; I think we're following it. And what I 
think the Clean Power Plan----
    Chairman Smith. Government mandates don't skew the market--
--
    Ms. McCarthy. --is designed----
    Chairman Smith. --and subsidies don't skew the market?
    Ms. McCarthy. Well, actually, we're following the direction 
of the market because renewable energy is actually becoming 
more and more cost-effective.
    Chairman Smith. Well----
    Ms. McCarthy. It is competing----
    Chairman Smith. --why not let the market work?
    Ms. McCarthy. --in the market itself.
    Chairman Smith. Why not--why impose the regulation? Why not 
let market work? It's going the right direction.
    Ms. McCarthy. The idea is to look at this as a long-term 
venture out to 2030 so that those that want to invest in 
innovation will have certainty that their investments will pay 
off.
    Chairman Smith. Okay. I think we're a democratic country, 
and the free market, if allowed to work, will work as it has 
been working. I'm just sorry that government wants to interfere 
with that. And that's going beyond my time by a minute. And the 
Ranking Member from--is--the Ranking Member is recognized for 
her questions.
    Ms. Johnson. Thank you, Mr. Chairman.
    Madam Administrator, it has been said that Congress is one 
of the few places where you can find the rhetoric of climate 
change denial alive and well. While that is disheartening, I'm 
reminded that these views are not representative of the 
majority of Americans. What kind of response have you seen from 
people as you travel the country discussing EPA's work? And 
have you found more support and positive feedback than you do 
here in this room?
    Ms. McCarthy. Well, I do find that, as I travel, there is 
tremendous concern about the impacts that are already being 
felt by climate change. People know it's happening and they're 
feeling it and they're afraid it. They're worried about the 
safety of their communities and they're worried about the 
future of their children and they're worried about the public 
health impacts that are so well-defined and well-understood.
    And so things are changing. They're looking for us to take 
action, but they're looking for us to take reasonable action, 
action that respects our energy system, that follows it, that 
doesn't increase energy costs and that provides opportunities 
for the jobs of the future.
    That is what we are doing today. That's what the Clean 
Power Plan is all about. It's not trying to redesign the 
system. It's trying to understand that right now today our 
energy system is in transition, and it's moving towards a clean 
energy system. And we know internationally that the countries 
that lead in this transition are going to be the ones that come 
ahead.
    Ms. Johnson. Thank you. Environmental challenges are often 
most severe among communities of color. The NAACP highlighted 
this fact stating that African-American children are twice as 
likely to die of asthma and three times more likely to be 
admitted to the hospital for asthma attack while African-
American adults are more likely to die of lung disease while 
being less likely to smoke.
    The NAACP went on to applaud the EPA's progress in setting 
a stronger standard but echoed the call of every major health 
organization by stating that our children, families, and 
communities deserve better than the new standard.
    The NAACP also criticized the National Black Chamber of 
Commerce for citing a widely debunked report to justify claims 
of economic harm to communities of color as a result of these 
regulations.
    What bearing do you at EPA and EPA's activity have on the 
issue raised by the NAACP? And how can we prevent the most 
vulnerable among us from bearing a disproportionate economic 
and public health cost of environmental inaction?
    Ms. McCarthy. Well, Ranking Member, I'm glad that you 
mentioned it because I think we've done a wonderful job 
nationally in looking at these issues, and it's one community 
and one vulnerable child at a time, and we have to be focusing 
our efforts in that direction.
    We know that our new ozone standard is a standard that was 
designed by law to be protective of public health with an 
adequate margin of safety. That means that ozone levels will be 
coming down, and those ozone levels reducing will mean less 
asthma attacks for our children. It will mean more protection 
for those that are most vulnerable.
    So we are following the science in providing the right 
standards and working with States to make sure that they 
continue to make progress moving down our air pollution, which 
they have for decades worked with us to achieve. And so it's an 
exciting opportunity.
    Now, on the Clean Power Plan, we wanted to make sure that 
while we gave States ultimate flexibility that we provided 
incentives for investment in low-income communities that most 
need it for opportunities for renewable energy and energy 
efficiency. So we developed an incentive program in there. It's 
voluntary, but that's what our Clean Energy Incentive Program 
is. It's to make sure that every community and every vulnerable 
individual has an opportunity to invest in the technologies of 
the future that are going to keep our planet stable and also 
protect public health.
    Ms. Johnson. Thank you. Opponents of the new ozone standard 
of 70 parts per billion often criticize EPA for setting it 
before all areas of the country have attained the new--the old 
standard of 75 parts per billion, accusing EPA of shifting the 
goalpost. Why is it important that we build on existing 
improvements to air quality and not wait until the old 
standards of 75 parts per billion be attained by more parts of 
the country? And how does setting a new standard encourage 
additional action to achieve attainment? To those who claim 
attainment efforts will prove too costly, how would you 
characterize the cost of inaction to this issue?
    Ms. McCarthy. Well, the cost of inaction is borne out by 
health impacts for our kids and our elderly, and we can show 
that this is not--is an incredibly cost-effective step forward 
that will save thousands of lives. And so it's important in and 
of itself.
    But the important thing to remember about air pollution is 
over the past 40 years we have been able to reduce air 
pollution 70 percent while the economy tripled. We are not 
raising our ability to protect public health on the backs of 
workers. We are growing jobs at the same time in this country, 
and we can do both.
    But one thing--and one statistic always sticks out at me is 
this is an incremental step forward. We work with States to 
incrementally reduce air pollution, and of all of the areas 
that were designated nonattainment in 1997 when we set a new 
standard, 95 percent of them have achieved that standard 
already. So it is a steady march forward in which we work 
together with States and local communities for the benefits of 
our kids, for the benefits of public health, and we've been 
able to do that without a detriment to business or jobs. That's 
how EPA does its job. That's how it was designed to happen.
    Ms. Johnson. Thank you very much. My time is--my time 
really hasn't expired. I'm going to give you back 20 seconds.
    Chairman Smith. Thank you, Ms. Johnson. Well, yield to me? 
Thank you, Ms. Johnson.
    The gentleman from Oklahoma, Mr. Lucas, is recognized.
    Mr. Lucas. Thank you, Mr. Chairman. Administrator McCarthy, 
the Cancer Assessment Review Committee report on glyphosate 
published on April 29 and then removed on May 2 came to the 
same conclusion as other global regulatory bodies about the 
safety of a vital agricultural tool. The report also addressed 
several deficiencies with the International Agency for Research 
on Cancer's monogram from early 2015, which, as you know, came 
to a different conclusion on glyphosate than your agency's 
report.
    I guess my first question, the Cancer Assessment Review 
Committee, they found that glyphosate is not a carcinogenic, is 
that correct?
    Ms. McCarthy. That--not--say that again. Not likely.
    Mr. Lucas. Found that glyphosate is not carcinogenic.
    Ms. McCarthy. Not likely is I think the term that we use--
--
    Mr. Lucas. Okay.
    Ms. McCarthy. --but I understand your point.
    Mr. Lucas. Was this report marked final and signed by the 
scientists at the Cancer Assessment Review Committee who 
completed the report?
    Ms. McCarthy. Well, my understanding of the Cancer 
Assessment Review Committee is they do a memo. They do about 40 
of these registration reviews. It's pretty mundane. It's 
routine work for the Agency, although important work. So my 
understanding is that that memo was done. It was unfortunate 
that it was mistakenly released by a contractor because it is 
still in review in the Agency. And when we have an issue that's 
important--as important as glyphosate is to the agricultural 
community, we want to make sure that we get the science right.
    Mr. Lucas. But, Administrator, was the report dated October 
1, 2015?
    Ms. McCarthy. I don't have exact date in front of me, sir, 
but that's reasonable.
    Mr. Lucas. My understanding is the document that was placed 
online----
    Ms. McCarthy. Yes.
    Mr. Lucas. --on the 29th----
    Ms. McCarthy. Yes.
    Mr. Lucas. --had been dated the October before, some months 
earlier, and I'm under the general impression that it was 
signed out to the--the memo was by the scientist----
    Ms. McCarthy. Yes.
    Mr. Lucas. --who participated in it?
    Ms. McCarthy. Yes.
    Mr. Lucas. So why did--and this begs the question, why did 
EPA wait several months to post the report marked final, then 
remove it from the Web site a few days later with no immediate 
explanation?
    Ms. McCarthy. Well, because it's----
    Mr. Lucas. Could you expand on that?
    Ms. McCarthy. Yes. It's just--it's a step in the process 
towards the Agency's decision, and we know that it will 
ultimately be made public. The question is we don't want to 
confuse the public with interim decisions being made.
    And in this case--and I really want to be very clear here--
the--what we call the CARC, which is our committee, is an 
internal committee. But very often, no less than 10 or 15 
percent, maybe five percent at the least, there is--there's an 
issue that's large enough that it warrants larger agency 
review. And this was one of those occasions.
    It is a big deal, sir, to deal with glyphosate both in 
terms of its international context and the importance it has 
for U.S. agriculture, so we have expanded that----
    Mr. Lucas. So, Administrator----
    Ms. McCarthy. --and it's one step in the process, but it's 
not a final decision----
    Mr. Lucas. But, Administrator----
    Ms. McCarthy. --for the Agency.
    Mr. Lucas. --if it was not a final document, why was it 
marked final?
    Ms. McCarthy. Yes.
    Mr. Lucas. Why was it signed out in the fashion it was?
    Ms. McCarthy. Well, it was a final review from that that 
particular committee. It was not a final agency action, and if 
you look at it----
    Mr. Lucas. But you understand why those of us who follow--
--
    Ms. McCarthy. Yes, we do.
    Mr. Lucas. --very carefully the actions that your agency 
takes----
    Ms. McCarthy. Yes.
    Mr. Lucas. --and all of the oversight work you have, the 
impact of these decisions is dramatic----
    Ms. McCarthy. Well, it was----
    Mr. Lucas. --in certain areas.
    Ms. McCarthy. --it was extremely unfortunate. It was 
released with a number of other documents that weren't yet 
ready for public viewing. It will be ready, and I don't want it 
to be----
    Mr. Lucas. But you would understand why there would be----
    Ms. McCarthy. --any signal other than we're still in the 
middle of a decision
    Mr. Lucas. --some concern from those of us----
    Ms. McCarthy. Yes.
    Mr. Lucas. --who watch the process----
    Ms. McCarthy. I get it.
    Mr. Lucas. --that perhaps a decision made in regular order, 
in regular process by the people of responsibility who 
understand----
    Ms. McCarthy. Yes.
    Mr. Lucas. --the issues had been overruled----
    Ms. McCarthy. Yes. Yes.
    Mr. Lucas. --somewhere else on high and backed up----
    Ms. McCarthy. Right.
    Mr. Lucas. --and that would be a grave concern----
    Ms. McCarthy. Well, there's two----
    Mr. Lucas. --if we were putting a----
    Ms. McCarthy. Yes.
    Mr. Lucas. --post-science decision that changed the outcome 
of the scientific work that had gone into the initial decision.
    Ms. McCarthy. This----
    Mr. Lucas. You can see the concern.
    Ms. McCarthy. Yes. There's two things that are very 
unfortunate here. One is our Cancer Assessment Review Committee 
does great work. It is not an indication when we take their 
memo off the table that we don't appreciate it and agree with 
it. It was a question of making sure that we had fully 
articulated that in the decision-making process.
    Mr. Lucas. That----
    Ms. McCarthy. That's not the end of the line of the 
decision. That's all.
    Mr. Lucas. That said, Administrator, when will we see the 
final report?
    Ms. McCarthy. We're--given that it's raised concerns, we're 
going to try to get it out as soon as possible. I know we 
always try hard, but I'm--this fall should be the likely--
    Mr. Lucas. Raised concerns within the scientific community 
doing the review or raised concerns from those that----
    Ms. McCarthy. No, just----
    Mr. Lucas. --oversee the scientific community?
    Ms. McCarthy. --from yourself who would interpret this as 
some kind of a backing up or not in agreement with a final 
agency action. The problem we have here is this was not a final 
agency action. It was a step in the process. And we appreciate 
the work of the Committee----
    Mr. Lucas. But these are the kind of things, 
Administrator----
    Ms. McCarthy. Yes.
    Mr. Lucas. --that causes such doubt and concern----
    Ms. McCarthy. Yes.
    Mr. Lucas. --in the public and in Congress and in the 
entities that are affected.
    Ms. McCarthy. Well, I don't want it to send a signal----
    Mr. Lucas. This is not good for anyone----
    Ms. McCarthy. Yes.
    Mr. Lucas. --to do it this way.
    Ms. McCarthy. You should not take it as a signal that the 
decision--that any decision has been made or what direction 
that decision will go. The committee offered us wonderful 
information. We just need to make sure that it's as robust as 
it needs to be for a decision as big as this.
    Mr. Lucas. And now the extra attention will be incredible 
when the final report----
    Ms. McCarthy. I'm sure.
    Mr. Lucas. --does come out.
    Ms. McCarthy. Well, I think it was always----
    Mr. Lucas. I yield back, Mr. Chairman.
    Ms. McCarthy. --very important, sir, and I appreciate it.
    Chairman Smith. Thank you, Mr. Lucas.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you for being with us today and----
    Ms. McCarthy. Thank you, sir.
    Mr. Rohrabacher. --we--you were aware that this was going 
to be a tough hearing, and thank you for being here and sharing 
your views with us----
    Ms. McCarthy. I'll do my best.
    Mr. Rohrabacher. --on this issue.
    Ms. McCarthy. Thank you.
    Mr. Rohrabacher. So now I'll have my shot.
    Ms. McCarthy. Okay.
    Mr. Rohrabacher. Okay. First of all, let me ask you this. 
Do you expect that the public and the people of this country 
need to comply with the orders of the EPA where you are 
exercising your lawful authority? Do you expect them to do so 
in a timely manner?
    Ms. McCarthy. To the best of their ability. Often, that 
doesn't happen----
    Mr. Rohrabacher. Right.
    Ms. McCarthy. --and we discuss----
    Mr. Rohrabacher. All right.
    Ms. McCarthy. --what we need to do to work together.
    Mr. Rohrabacher. But there are several cases in which 
people were not complying, and EPA was very tough on them in 
your administration. There are those cases as well. Let me just 
note that we have lawful authority on this side of the aisle to 
it----
    Ms. McCarthy. Yes, sir.
    Mr. Rohrabacher. Here we are. We have legislative authority 
to oversee what our federal tax dollars are using. Yet since 
August of 2015, we have sent ten letters to you. The letters 
contained 35 total requests, and we got four replies back. And 
of those four replies, only one was fully responsive. The other 
seven were only partially responsive to the requests that were 
made.
    So we have 27 requests, more than 77 of all of our requests 
for information in pursuing our lawful authority to oversee 
what you're doing and getting a good understanding and 
protecting the American people's right to know these things, 77 
percent were not answered, six out of ten letters have received 
no reply at all. Do you consider that compliance and--with the 
lawful authority, our lawful authority as a legislative 
oversight of your agency?
    Ms. McCarthy. Well, sir, I have tremendous respect for the 
job of this committee, and I will assure you that we are doing 
everything we can to respond to your request in a timely way.
    Now, I know that we have--we continue to do searches that 
are necessary. It is very challenging, the amount of requests 
that we receive from this committee and others. We do our best 
to make sure that everyone gets the--every gets the attention 
it needs, and will do our best to respond----
    Mr. Rohrabacher. Okay.
    Ms. McCarthy. --to the outstanding letters----
    Mr. Rohrabacher. Let me just note----
    Ms. McCarthy. --inasmuch as we can.
    Mr. Rohrabacher. --that if this was just you and we had an 
established working relationship with you and saw the tough job 
that you have, that might--we might actually take a different 
approach to this and give benefit of the doubt, repeated 
benefit of the doubt
    Ms. McCarthy. Yes.
    Mr. Rohrabacher. --over the years of not getting the type 
of cooperation we need. But this seems to be a pattern 
throughout this Administration, the idea of cover-ups, of 
inadequate professionalism and the job that needs to be done.
    I mean, there's an example here of this coal mine and 
several other cases like this where the EPA delayed in actually 
notifying people about toxic spills, and yet when we make 
requests for information, we don't get replies back. We're 
trying to protect the people and here you're saying, well, 
we're just doing our best.
    We see this in other agencies and departments throughout 
this Administration. I think it comes from the top where 
there's an arrogant disregard for legislative authority. The 
President comes to give a State of the Union and says I'm going 
to do this on my own. If I don't get my way, it's the highway.
    And then we come across things where we don't get even our 
request for information answered. I think that this does not 
speak well of the Administration, and I would hope that you 
could do better. I think that this is unacceptable. We need to 
make sure that if the EPA's requests are going to be taken 
seriously by the American people because that's your lawful 
authority, our lawful authority to oversee this and get the 
answers on why this--why we had this spill--and by the way, 
there's a judge actually backed this observation up where 
didn't he recently say that the EPA may have lied in court to--
and demonstrated a total lack of commitment to carrying out the 
law? This was your Administration now that a member of the 
judicial branch is pointing out is just unacceptable.
    Ms. McCarthy. Well, sir, I--no one would like to produce 
these documents more quickly than I would because I have great 
faith in the way in which EPA in this Administration has 
followed the science and the law. I want to be able to provide 
you information as quickly as I can. And, you know, we'll do 
our best. The Gold King Mine incident was--unfortunate is 
probably too weak a word in this issue. It was a disaster. We 
have been doing our best to take full responsibility for that. 
I am full well aware that while we notified people in advance 
so that efforts could be taken to make sure that contaminated 
water didn't get into farm fields, it does not excuse the 
fact----
    Mr. Rohrabacher. Well----
    Ms. McCarthy. --that our notice process wasn't up to snuff.
    Mr. Rohrabacher. --you can't say you're trying to protect 
farm fields by not letting the information out.
    Ms. McCarthy. I understand that.
    Mr. Rohrabacher. And let me just say that this type of 
stonewalling of mistakes and things and we're only trying to do 
our best, it just doesn't cut it when we see this happen so 
often in this Administration.
    Ms. McCarthy. All right, sir.
    Mr. Rohrabacher. Thank you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    And the gentleman from Texas, Mr. Neugebauer, is 
recognized.
    Mr. Neugebauer. Well, thank you, Mr. Chairman. Thank you, 
Administrator, for being here today.
    Ms. McCarthy. You, too.
    Mr. Neugebauer. As you know, as the Ranking Member pointed 
out, we've had numerous hearings about all the EPA regulations, 
both those proposed and finalized. And many of the witnesses 
that testified before this committee have consistently 
testified that EPA's regulatory agenda will harm the American 
economy. And so I'm concerned about that regulatory agenda that 
will regulate the United States into some kind of economic 
irrelevance.
    Now, the Clean Power Plan is a good example of EPA's 
command-and-control mentality. I don't think this is 
environmental protection, but I think it's unconstitutional 
usurpation of power in the name of environmental activism. Even 
President Obama's constitutional law professor Lawrence Tribe 
stated that ``EPA is attempting an unconstitutional trifecta, 
usurping the prerogatives of the states, Congress, and the 
federal courts all at once, but burning the Constitution of the 
United States, about which I deeply care, cannot be a part of 
national energy policy.'' This is not necessarily a very 
conservative jurist.
    So the question I have, Administrator McCarthy, does the 
Constitution give the EPA the right to ignore the will and 
intent of Congress and carry out its own agenda?
    Ms. McCarthy. No, it requires us to actually follow the law 
and follow science.
    Mr. Neugebauer. Well, numerous states, including my home 
state of Texas, for example, disagree with your analysis. In 
fact, the Supreme Court has placed a stay on the rule until 
it's examined whether it's constitutional or not----
    Ms. McCarthy. That's correct.
    Mr. Neugebauer. --is that correct?
    Ms. McCarthy. That is correct.
    Mr. Neugebauer. Yes. So citizens and businesses in my home 
state are very concerned about the increase in electricity 
prices that will occur when the Clean Power Plan goes into 
effect. And I think you said a while ago that you believe that 
the cost of electricity--did I hear you say you think the cost 
of electricity is going down with the Clean Power Plan?
    Ms. McCarthy. I--by 2030 our estimate is that it will be--
an average family will actually reduce their energy bill 
annually by $80. Yes, I--yes, that's what you heard me say.
    Mr. Neugebauer. Well, I don't believe that and I would 
yield to the Chairman, but, Mr. Chairman, I don't believe that 
anybody has testified before this committee that that the cost 
of electricity is going down, have they?
    Chairman Smith. That's correct/
    Mr. Neugebauer. Yes. So I think we've got EPA with one 
perspective and we've got the entire utility industry with 
another perspective, and not just the utility industry but 
other outside groups that disagree with that. So the question 
is can you furnish this committee with a cost-benefit analysis 
that you did that shows that the cost would go down? And have 
you shown that report to----
    Ms. McCarthy. Yes.
    Mr. Neugebauer. --others to validate your finding?
    Ms. McCarthy. Our regulatory impact analysis is part of the 
final rule, and I'm happy to forward that if the Committee does 
not have it.
    Mr. Neugebauer. So the question is sometimes I think folks 
on our side of the aisle get painted with the perspective we 
don't care about the environment. We care very much about the 
environment. But we care very much about making sure, as the 
gentleman from California said, being good stewards of the 
taxpayers' money and making sure that the policies that are 
implemented in the Administration are policies that are in the 
best interest of the country. And I think one of the things 
that--and as the Chairman was pointing out, even if you employ 
all of these certain practices that are put in place, we're 
talking about making an infinitesimal change in the 
environment.
    And so I think when you look at--and I haven't done a cost-
benefit analysis, but when you say it's almost as thin as a 
sheet of paper and you're going to cost billions and billions 
of dollars, I don't know how that's in the best interest of the 
American people.
    Ms. McCarthy. Sir, that issue has been directly addressed 
by the Agency and backed up by the Supreme Court in its 
decisions. It was very clear that climate change requires a 
multiple of actions to be taken in order to address the 
changing climate and the challenge that that poses to the 
future of our communities, our kids, and our planet. No one 
action is going to resolve it, but inaction is going to 
preclude us from taking care of this very real and imminent 
danger. And in the----
    Mr. Neugebauer. Well, I'm going to stop you there. I mean, 
here--I think what we have to kind of put this down in 
perspective, you know----
    Ms. McCarthy. Yes.
    Mr. Neugebauer. --we can talk about numbers and billions 
and stuff. You know who I think about? I think about that 
little single mom----
    Ms. McCarthy. Yes.
    Mr. Neugebauer. --that's raising two kids that's working 
two jobs and she's worried about whether she's going to be able 
to pay her electric bill or she's going to be able to buy 
gasoline to get to work to support her family and to make sure 
if those kids need to go to the doctor that they're able to do 
that.
    Ms. McCarthy. Yes.
    Mr. Neugebauer. And what we're saying is we're willing to 
sacrifice those people for some long-term goal that we don't 
even have a clear picture of whether it's actually achievable, 
number one, and secondly, whether it's beneficial. And what do 
you say to her?
    Ms. McCarthy. I think we're both looking at protecting the 
very same people from the very same concerns that you 
articulated. There is nothing in the rules that we have done on 
the Clean Power Plan that is going to threaten that woman. 
What's going to threaten her and her family is no action on 
climate and other efforts that we can take to reduce pollution 
that will allow them to have a healthy and viable future.
    And we can do this. It is already happening, sir. The very 
transition that we are looking at in every State and every 
region that said let's look at how we tackle this problem 
together, every State and every region is seeing a shift to 
clean power. Texas is perhaps the largest producer of renewable 
energy in the country.
    Mr. Neugebauer. My district is.
    Ms. McCarthy. They are not--well, you're not doing it 
because of the Clean Power Plan. You're doing it because the 
market demands it. Likewise, the Clean Power Plan is 
underpinning that to ensure that those investments continue and 
that market continues to move in the right direction----
    Mr. Neugebauer. But I don't think we need the EPA----
    Ms. McCarthy. --for those kids.
    Mr. Neugebauer. As the Chairman said, why don't we let the 
market determine it? The reason that I have more wind in my 
district than any place in the country, one is because of some 
very attractive tax credits----
    Ms. McCarthy. Yes.
    Mr. Neugebauer. --quite honestly, but the other is----
    Ms. McCarthy. Yes.
    Mr. Neugebauer. --you know, obviously, we've got a little 
wind out there. But I think the perspective that I'm saying 
is----
    Ms. McCarthy. Yes.
    Mr. Neugebauer. --that the mandates--I don't have very many 
calls of people say, boy, the air sure is dirty here today. 
Would you do something about it? But I do have a lot of calls 
in my office with people calling and saying, you know, I can't 
afford my electricity bill, I can't afford the gasoline. I 
mean, those----
    Ms. McCarthy. Well, I----
    Mr. Neugebauer. --are the calls that I get.
    Ms. McCarthy. I'm happy to share----
    Chairman Smith. Thank----
    Ms. McCarthy. --with you some of the calls that--the 
information and the communication we get from some of the 
communities in Texas and other places. But I appreciate your 
point of view, sir, and I want you to know that we are thinking 
about those kids, we're thinking about jobs, we're thinking 
more than about climate change when we design our rules.
    Chairman Smith. Thank you, Mr. Neugebauer.
    And the gentleman from Alabama, Mr. Brooks, is recognized 
for his questions.
    Mr. Brooks. Thank you, Mr. Chairman.
    On August 31, 2015, I along with 17 other members of this 
committee sent you a letter regarding concerns about the ozone 
National Ambient Air Quality Standards that were in the process 
of being finalized. The final ozone rule was issued in October 
of last year. Mr. Chairman, I'd like to enter into the record 
our letter dated August 31, 2015.
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix]
    Mr. Brooks. Several committee hearings in 2015 raised 
serious doubts about the underlying science used to justify the 
proposed ozone rule. You acknowledged two distinct sets of 
scientific studies used during the rulemaking process. The 
first set contains large population studies which you yourself 
acknowledged as being unreliable. The second set are human 
exposure studies of which there are only four such studies that 
the EPA and the Clean Air Scientific Advisory Committee both 
reviewed.
    In particular, the committee's letter raised concerns that 
the proposed ozone rule was based on a single study by 
Schelegle of just 31 individuals, 31 individuals, a remarkably 
small and unreliable sample size. More disconcerting was the 
inability of the Schelegle study to replicate key results from 
two other studies, as we clearly stated in this August 25 
letter. In other words, your entire rule depends on one study. 
Administrator McCarthy, do you agree that the basis for the 
ozone rule relies heavily on this one study by Schelegle?
    Ms. McCarthy. Well, actually, sir, I believe it's part of a 
weight-of-evidence approach where we have thousands of studies 
that have been generated over decades. Ozone is perhaps the----
    Mr. Brooks. Okay. That's not answering my question. Please 
just answer my question. Do you agree that the ozone rule 
relies heavily on this one study by Schelegle, yes or no?
    Ms. McCarthy. No, sir, I don't think in an extraordinary 
way. I think it relies on the entire weight of the evidence 
before us. There are a thousand new studies that were 
considered in the latest ozone standard.
    Mr. Brooks. As a party of this committee's oversight and 
investigations, we requested documents concerning the ozone 
role from the Environmental Protection Agency. The Agency has 
produced documents to the Committee with massive amounts of 
redactions. Administrator McCarthy, these are apparently 
PowerPoint presentations titled ``Ozone NAAQS Option Selection 
Briefing and Ozone NAAQS Information Briefing.'' Almost the 
entirety of it is redacted as nonresponsive to the committee 
requests.
    So let me just show you some of the stuff that we got. 
We've got 65 pages of responses, nonresponsive, nonresponsive, 
nonresponsive, nonresponsive, 65 pages. I would submit to you 
that these redactions are unacceptable, and I'll ask you today 
if you will agree to provide all of these documents to the 
Committee without any redactions?
    Ms. McCarthy. Sir, we have provided this committee and in 
the docket of our ozone standard deliberations, it is--probably 
would stand this tall if I brought it in. You've got an 
integrated----
    Mr. Brooks. That's fine. I'm asking are you going to send 
to this committee the documents we have requested? I'm not 
concerned about documents you have sent. I'm concerned about 
documents that have not been sent.
    Ms. McCarthy. As far as I know, we----
    Mr. Brooks. Will you commit to----
    Ms. McCarthy. As far as I know we have provided you full 
response, but I will go back and make sure that we have done 
that. Redactions are common when it's deliberative material. It 
protects our ability to work inside to make sure we do our 
jobs.
    Mr. Brooks. And so to the extent then that there are 
materials that have not been submitted, you're telling this 
committee today that you will submit them?
    Ms. McCarthy. Only if they're--if they're available to me 
and they're appropriate to submit, I will submit them. That is 
not a blanket statement that I'm going to provide the Committee 
with information that's inappropriate to provide and--or that's 
not responsive.
    Mr. Brooks. And it seems that a lot of your argument for 
these regulations is based on global warming or climate change, 
which seems to be the term that's used, but aren't you really 
talking about global warming?
    Ms. McCarthy. Not the ozone one, sir. That's----
    Mr. Brooks. I know not the ozone. I'm going to the broader 
brush now----
    Ms. McCarthy. Well, we tend not to----
    Mr. Brooks. --carbon by way of example.
    Ms. McCarthy. --call it global coming because it--that is 
not particularly an accurate term. It's a changing climate, 
which can result in many different types of impacts and----
    Mr. Brooks. And is sea rise one of the concerns?
    Ms. McCarthy. Sea level rise, yes.
    Mr. Brooks. What is the largest body of ice on the planet?
    Ms. McCarthy. I don't know that, sir. I'm not--I'm not a 
scientist. I don't want to answer that.
    Mr. Brooks. I'm sorry, you don't know--we're talking about 
melting ice that you are arguing is going to increase sea 
levels. That in turn is going to cost the American people 
billions of dollars to try to rectify it based on these 
standards that you're pushing down on them without 
Congressional approval, and you're telling me you don't know--
--
    Ms. McCarthy. Sir----
    Mr. Brooks. --what the largest body of freshwater ice is on 
the planet?
    Ms. McCarthy. Sir, I don't agree with the way in which 
you've characterized this, but I hesitate to go down the lines 
of speaking like a scientist.
    Mr. Brooks. Well----
    Ms. McCarthy. You've had the President's scientists here--
--
    Mr. Brooks. Wait, I've got----
    Ms. McCarthy. --that you've been talking with----
    Mr. Brooks. --limited time. You don't know that the 
Antarctic----
    Ms. McCarthy. Yes, well----
    Mr. Brooks. --continent----
    Ms. McCarthy. --I'm aware of the Antarctic, and I'm aware 
of the----
    Mr. Brooks. --comprises about 70 to 90 percent----
    Ms. McCarthy. --yes.
    Mr. Brooks. --of the freshwater ice on the planet? I mean, 
that's a rather remarkable amount. That's not like there's a 
close second place that you have to worry about.
    Ms. McCarthy. Is there a question?
    Mr. Brooks. Now, have I refreshed your recollection with 
respect to the Antarctic being the largest body of freshwater 
ice on the planet?
    Ms. McCarthy. I'm aware of that.
    Mr. Brooks. Now you're aware of that? Okay. That's good. 
Now----
    Chairman Smith. The gentleman's time has expired.
    Mr. Brooks. What a bummer, Mr. Chairman. Thank you.
    Chairman Smith. But thank you, Mr. Brooks, for those great 
questions.
    The gentleman from California, Mr. Bera, is recognized for 
his questions.
    Mr. Bera. Thank you, Administrator.
    Ms. McCarthy. How are you?
    Mr. Bera. I'm doing fine. Thank you, Chairman and Ranking 
Member.
    I grew up in California, in southern California in the Los 
Angeles area in the 1960s, and I recall as a kid there were 
days where my mom would not let us go outside because if we did 
sneak outside, as kids are known to do sometimes, we'd get out 
there playing--we could see the air that we were breathing 
sometimes. And when you came in after playing, you could 
actually feel the burning in your lungs.
    And it was through understanding the damage that was 
causing to our population, our people, through enacting laws 
either through legislation or companies doing the right thing 
and understanding that they had a responsibility that we were 
able to clean up the air in Southern California so that we 
still have a ways to go. But we were protecting the public. It 
was a public health measure through acts like the Clean Air 
Act, through acts like the Clean Water Act to impact our public 
health.
    Now, fast forward. You know, I decided to become a doctor, 
went to medical school, went into internal medicine. To this 
day we're seeing dramatic increases in asthma rates. We're 
seeing impacts that are disproportionately affecting, you know, 
urban areas, lower-income communities, communities that don't 
have the benefits of some of the rules and regulations that we 
have in California, and we've still got a long ways to go. And 
that does have a net cost. It has an impact. It has an impact 
on individuals; it has an impact on their health.
    You know, Administrator, if you could just share from your 
perspective some of the public health benefits of, you know, 
Clean--the Clean Air Act, Clean Water Act, some of the things 
that--and then some of the negative consequences of trying to 
roll back some of the legislation that really in many ways has 
helped save and impact hundreds and thousands of lives.
    Ms. McCarthy. Well, I think probably if you're returning to 
Los Angeles, you will see the benefits as well as feel it. 
We've been talking a lot about this to try to understand what 
we're going to do to educate people about what the world looked 
like before these environmental statutes actually came into 
being and Congress was wise enough to challenge us to limit the 
amount of pollution in the air we breathe and the water that we 
drink.
    I think you know as well as I do that these rules, when 
they reduce pollution, it's not an abstract concept; it's a 
real-life issue. You know, it has helped to save--and we can 
show you certainly our impact assessments. We have showed you 
that we are saving millions of lives. We are protecting kids 
from exacerbated asthma attacks, from trips to the hospital, 
many of which are African-American and Hispanic kids because 
that's the ones that have much higher prevalence of asthma.
    We are now understanding the cardiovascular challenge that 
it poses. If you have, you know, obstructive--what is the 
word--pulmonary disease, you are in a lot of trouble on a high 
ozone day.
    So part of the challenge we have with providing these NAAQS 
standards is to try to make sure that people have sound 
information to protect their own lives while we work with 
States to reduce that actual pollution.
    And we have had so much success. We have reduced by 70 
percent the amount of air pollution. We are where every other 
country wants to be on air pollution. But the more we learn, we 
more we know that there continues to be extreme challenges that 
we all have to face. We can see it in our drinking water. With 
lack of investment in our infrastructure, you are going to see 
more and more cities putting their hands up in the air and 
saying I cannot deliver drinking--clean drinking water because 
nobody's invested in my system for 20 years.
    So we are--have to really regroup and remember that we--our 
country has had our economic engine roaring ahead because we 
have a place where people want to live, where they want to grow 
their families, and that's all about making sure that 
environmentally we can be safe and healthy.
    Mr. Bera. And it's a shame that this body, which 
historically has been able to come together as Democrats and 
Republicans on issues of public health, on issues of public 
safety, is not doing that. And there is an urgency of now. 
There is an urgency to prevent the next Flint, to invest in our 
public health and our infrastructure because it's not just 
about us, it's about our kids, and I don't want my daughter or 
my grandchildren eventually to go out and be able to see the 
air that they're breathing. I want that air to be cleaner and 
healthier.
    So thank you for what you're doing, and then let's buy it 
for the next generation. I yield back.
    Chairman Smith. Thank you, Mr. Bera.
    The gentleman from Florida, Mr. Posey, is recognized for 
his questions.
    Mr. Posey. Thank you, Mr. Chairman. And, Administrator 
McCarthy, good to see you again.
    Ms. McCarthy. You, too.
    Mr. Posey. And let me just follow up what the last speaker 
was saying. I believe everybody on both sides of the aisle on 
this committee most certainly wants clean air in the most 
honest, efficient way possible and transparent way possible.
    Last year, EPA proposed a regulation to prohibit conversion 
of vehicles originally designed for on-road use into racecars. 
The regulation would have made the sale of certain products for 
use on such vehicles illegal. The proposed regulation was 
contained within a non-related proposal entitled ``greenhouse 
gas emissions and fuel efficiency standards for medium- and 
heavy-duty engines and vehicles, phase 2.''
    In response to the behavior, members of both the U.S. House 
of Representatives and the U.S. Senate introduced legislation 
with bipartisan support, I might add, that would clarify the 
Clean Air Act to explain that it has always been illegal to 
modify a street vehicle into a racecar.
    It appears that three EPA employees, Mr. Brooks, a Ms. 
Werner, and a Mr. Belser, were involved with placing the 
provision in the rulemaking process. When those EPA officials 
briefed our committee staff on this issue, they readily 
admitted to conducting no scientific analysis on the impacts of 
the regulation whatsoever and with no scientific underpinnings. 
Your staff was questioned on the secretive nature of notifying 
the proposed regulation.
    Again, your staff confessed that YouTube videos of diesel 
trucks co-rolling hybrid vehicles was the primary motivation 
for the proposed regulation. They even brought pictures of the 
YouTube videos to illustrate their concerns. That reasoning, 
frankly, is embarrassing. I hope it is to you, too, and a clear 
overreach by your staff and the EPA who is charged with 
rulemaking based on sound science, as you say often, not of 
unsubstantiated videos posted on the Internet. In fact, your 
agency was forced to drop the controversial language from the 
heavy- and medium-duty truck rule, and thank you for that.
    The question is do you agree now with sneaking a provision 
into an unrelated rule without conducting any scientific 
analysis whatsoever and based on YouTube videos is not the 
proper way to do rulemaking?
    Ms. McCarthy. Well, let me begin by saying that EPA 
supports the motorsports industry and it contributes 
tremendously to our economy and our contributions.
    I will have to say that this turned out to be a very 
misunderstood and misinterpreted step to try to clarify 
existing law. It was never intended to change the playing 
field----
    Mr. Posey. Okay. I read those reports----
    Ms. McCarthy. --so they----
    Mr. Posey. Thank you. I'm going to go to the next question 
here.
    Ms. McCarthy. Okay.
    Mr. Posey. Have any steps been taken to reprimand or 
discipline the officials involved in sneaking this provision 
into the rule?
    Ms. McCarthy. I disagree with the characterization that it 
was sneaking. They were intending to put clarification in in a 
heavy-duty vehicle rule about vehicles. Was--did it turn out to 
be a surprise and something we certainly should have discussed 
before? I think we should have discussed it. I don't like 
surprises any more than you do. I don't think they intended it 
to be nefarious in any way. They were clarifying for the 
benefit of what they believed to be the racing industry.
    Mr. Posey. I'm still concerned that EPA wants to regulate 
the amateur racing community and those who use non-road 
vehicles for racing. It is my understanding that the Clean Air 
Act never had the intent to regulate these vehicles, as you've 
indicated, and that subsequent report you've heard.
    Ms. McCarthy. Dedicated racing vehicles have never been a 
focus of our attention, and the question was could the--could 
we be clearer about that. And I think that's what the intent of 
the language was, but I understand your concern.
    Mr. Posey. Okay. So can you assure the American people 
beyond any shadow of doubt that non-road vehicles modified 
specifically for the purpose of racing will be exempt from the 
Clean Air Act in the future?
    Ms. McCarthy. My understanding is that we have considered 
them to be exempt since day one as long as you have dedicated 
racing vehicles. Our concern is just with companies that may be 
selling these sort of defeat devices for on-road vehicles.
    Mr. Posey. Well, and the racing community wants you to 
chomp down on those people.
    Ms. McCarthy. That's exactly right.
    Mr. Posey. You know, but----
    Ms. McCarthy. That is true. That is true.
    Mr. Posey. We would just like to have your personal 
assurance that, you know, you say they're exempt now, but there 
will be no future efforts to change that exemption.
    Ms. McCarthy. If we--in the future--when I'm here, if we 
want to resolve this issue and clarify it, we will work with 
the industry and stakeholders to make sure that we do it in a 
way that they understand it and we all agree that it's written 
as intended.
    Mr. Posey. Okay. So you--are you giving me the assurance 
and the American people that non-road vehicles modified 
specifically for the purpose of racing will be exempt from the 
Clean Air Act?
    Ms. McCarthy. As long as they are dedicated racing 
vehicles, they are exempt, and as far as I know----
    Mr. Posey. Is that a yes?----
    Ms. McCarthy. --they will be.
    Mr. Posey. Can I just take that as a yes?
    Ms. McCarthy. As long as it's phrased the way I said it, 
absolutely.
    Mr. Posey. All right.
    Ms. McCarthy. But I--you know, I do want to apologize 
because I know this raised a lot of issues, and frankly, it 
came out of conversations with the racing industry. It wasn't 
done well, not the way we generally do it, which is to road-
test--sorry the pun----
    Mr. Posey. Yes.
    Ms. McCarthy. --but to talk to people about it, and we will 
make sure that that doesn't happen again.
    Mr. Posey. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Chairman Smith. Thank you, Mr. Posey.
    And the gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    Director McCarthy, thank you for being here.
    Ms. McCarthy. Yes, sir.
    Mr. Weber. In your discussion with Randy Neugebauer, you 
said that Texas probably was the leading clean energy producer 
in the country----
    Ms. McCarthy. Yes.
    Mr. Weber. --and I can tell you from being from Texas, 
having worked on the Environmental Reg Committee, that it is, 
wind industry.
    Ms. McCarthy. Yes, it's amazing.
    Mr. Weber. And then you also said that you're not doing it 
because the Clean Power Plan requires it but because the market 
demands it.
    Ms. McCarthy. Yes.
    Mr. Weber. So Texas--the Texas Legislature, the Texas 
energy industry if you will was a little foresightful in that 
regard, wouldn't you say?
    Ms. McCarthy. I think that they--obviously, they were very 
forward-leaning----
    Mr. Weber. They were----
    Ms. McCarthy. --and they took advantage of a lot of 
investment----
    Mr. Weber. Very foresightful.
    Ms. McCarthy. --for your state.
    Mr. Weber. And Texans are benefiting from that now, 
wouldn't you say?
    Ms. McCarthy. I would hope so.
    Mr. Weber. Right, absolutely. So you would argue that--you 
would say--agree that the Texas Legislature had a legitimate 
purview and did the right thing for Texas constituents, and 
their constituents are benefiting from it? The reason I ask is 
because of the Clean Power Plan. Now 26 states, including 
Texas, which took the lead, by the way, filed a suit against 
the Clean Power Plan citing it as overreach----
    Ms. McCarthy. Yes.
    Mr. Weber. --and the Supreme Court seems to have, at least 
for the interim, agreed. Would you agree----
    Ms. McCarthy. Well, they've stayed it.
    Mr. Weber. They've--until they can look at it further.
    Ms. McCarthy. That's correct.
    Mr. Weber. So in staying it, what they've said is that 
apparently there's some merit here, we better take a look at it 
and not just remand it to the lower court decision?
    Ms. McCarthy. Well, they certainly stayed it----
    Mr. Weber. Okay. So----
    Ms. McCarthy. --that's right.
    Mr. Weber. So, in essence, if the Texas Legislature has 
that kind of overview, purview, shouldn't Congress have the 
same kind of overview on the Clean Power Plan in those actions?
    Ms. McCarthy. Well, the Supreme Court will certainly get 
their eyes on this again.
    Mr. Weber. Well, I'm glad you recognize that. I appreciate 
that.
    What I want to ask is that, last month, EPA released its 
proposed renewable fuel standard, the RFS rule, setting the 
renewable fuel volumes for 2017.
    Ms. McCarthy. Yes.
    Mr. Weber. Now, under the proposed rule, the EPA requires 
18.8 billion gallons of renewable fuels be blended into the 
fuel supply by 2017, which is actually an increase from the 
EPA's 2016 rule. The proposed rule increases biofuel volumes in 
every category, even though the United States is currently not 
on track to meet the 2016 targets. So here's my--right? You 
understand that?
    Ms. McCarthy. Yes.
    Mr. Weber. So here's my question. Do you believe that the 
proposed RFS rule for 2017 is achievable?
    Ms. McCarthy. We proposed it because we believe so, but it 
is in a comment period, and we're certainly welcoming those 
comments----
    Mr. Weber. I'm happy to hear you say that. The EPA's 
proposing to increase cellulosic biofuel volumes----
    Ms. McCarthy. Yes.
    Mr. Weber. --by 82 million RINs even though the United 
States is on track to produce only less than half of the 2016 
mandate. So if you've looked at it and you've proposed it 
because you think it can be done, you're proposing to increase 
the advanced biofuel volumes even though the trend suggests 
that on the current path we're on we're going to see a 380 
million RIN shortfall in 2016. The reality is the EPA has 
proposed an increase in the RINs with no demonstrable way to 
meet that mandate.
    Ms. McCarthy. Okay. Well, again, we're welcoming comments, 
but in the packet itself----
    Mr. Weber. Well, if we can't meet 2016 and you're 
increasing in 2017, how do you propose that to happen?
    Ms. McCarthy. Actually, you know, we are taking a look at 
what we know is happening in 2016, what's available to us 
because it's a long year. It's not quite over.
    Mr. Weber. Well, let me just argue in the last minute that 
I've got----
    Ms. McCarthy. Okay.
    Mr. Weber. --that I would say just as the Texas Legislature 
demonstrated its foresightfulness in helping be the wind-
producing state that it is, how about Congress being given 
credit for having some foresightfulness, too, when we think the 
EPA has overstepped its bounds and is promulgating rules that 
are unrealistic? It ought to be up to us to point that out so 
that our constituents benefit as well, and I just want to make 
that point.
    I do want to segue to a little bit different topic. It's 
come out that some EPA employees were using their personal 
emails for official business in an apparent effort to evade 
Congressional oversight. Now, in our estimation, this is a 
violation of the Federal Records Act. What do you intend to do 
about it?
    Ms. McCarthy. I don't know what issue you're referring to, 
sir. We've certainly had many discussions about the use of 
private emails. We've had an OIG investigation into that issue, 
and I am unaware of any evidence to suggest that we're trying 
to subvert the normal process or not complying at this point 
with all of the rules and regulations that govern----
    Mr. Weber. So you're unaware of any violations in that 
regard?
    Ms. McCarthy. I am unaware that anyone has indicated that 
we have a systemic problem with using emails to subvert the 
process and subvert----
    Mr. Weber. Well, I didn't say systemic; I said any.
    Ms. McCarthy. You--I'm sorry, sir. You're going to have to 
show me that because all the times that I've been here, you 
know, we certainly had an IG. They did not verify that there 
was--that this was a practice in EPA, so I feel pretty good 
about where we are. And if there's information that you want to 
provide me, I'm happy to look at that.
    Mr. Weber. You're going on record today saying that you 
don't have any evidence of that in any of the Agency at all?
    Ms. McCarthy. Well, I'm not suggesting that there hasn't 
been, you know, an email that--a specific incidence, but to 
suggest that we're doing it to subvert a--the public process is 
what I am objecting to. You know, you will get oftentimes 
people sending--receiving something on their email. We have a 
direct policy that speaks to how you enter that in, if it's 
work-related, into the public process and to meet all of our 
federal obligations----
    Mr. Weber. Does that also apply to the Pebble Mine 
investigation?
    Ms. McCarthy. The Pebble Mine investigation is 
multifaceted. Folks have been----
    Mr. Weber. I'm talking about them using personal emails and 
corresponding.
    Ms. McCarthy. There have been--I do know that there was a 
gap when a person left the agency where we had trouble locating 
their emails and we've been trying to fill that gap----
    Mr. Weber. Okay. So you are aware. That kind of contradicts 
what you said earlier, you weren't aware.
    Ms. McCarthy. No, you asked me if someone was using their 
private system to subvert the public process. I am----
    Mr. Weber. So you know that they potentially did it in the 
Pebble Mine incident but you haven't been able to find those 
emails?
    Ms. McCarthy. If there a potential, I would like to be able 
to address the situation.
    Mr. Weber. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Weber.
    The gentleman from Michigan, Mr. Moolenaar, is recognized.
    Mr. Moolenaar. Thank you, Mr. Chairman, and Administrator 
McCarthy----
    Ms. McCarthy. How are you?
    Mr. Moolenaar. --thanks for being here with us.
    First of all, I want to commend you. You apologized for the 
rule, the racing vehicle rule. You heard the feedback from 
stakeholders. You withdrew the rule, and you responded very 
promptly, and I want to--you know, I actually have a business 
in my district that really--that would have basically put them 
out of business, and so I want to thank you for that, first of 
all.
    Now, I want to tell you about another rule that has people 
in my district very concerned, farmers, property owners, home 
builders. That's the Waters of the U.S. Rule, and I would say 
that the EPA's approach, that has been very different when you 
consider that 32 states are suing the federal government over 
this, where the goal was to offer clarity and clearly that has 
not happened. I feel that the stakeholders involved in that are 
still very concerned about it, and I'm sure you hear from them, 
although I am also concerned about some of the, you know, 
social media efforts to promote the rule, lobby for the rule, 
if you will, that didn't give you really very accurate 
feedback, and I know your goal has been to clarify aspects of 
the Clean Water Act but I would suggest that rather than what 
happened before where I commended you, this has been just the 
opposite, and it has added further confusion. And are you 
hearing that from people?
    Ms. McCarthy. I am certainly hearing that people continue 
to both be for and against the Clean Water Rule but it is a 
final rule, and it is in court and we'll see where that 
litigation proceeds. Do I wish I could have had one moment 
where everybody would understand and agree? I wish I had it. I 
don't have it on this rule.
    Mr. Moolenaar. Well, I think it's pretty strong indication 
when a majority of Congress has voted to disapprove of the rule 
and 32 states are suing over that rule so I don't know if 
there's anything you can do to rescind it or modify it at this 
point but I would encourage you to reach out to the 
stakeholders to do something new on that because it's still 
more confusion and more concern throughout Michigan.
    Ms. McCarthy. Well, I appreciate that, and I'll do the best 
I can to reach out. I mean, it's primarily the agricultural 
industry that's worried about it and our farmers, and you know, 
I think what I'm most concerned about is that I paid very close 
attention to their comments and concerns, and in finalizing the 
rule, I went above and beyond the exemptions and exclusions in 
that rule.
    Mr. Moolenaar. Well, I don't-
    Ms. McCarthy. I did everything I could not just to protect 
it but go beyond it. That's what confuses me and concerns me.
    Mr. Moolenaar. Okay. Well, I would just encourage you to 
reach back out and see what----
    Ms. McCarthy. I appreciate that.
    Mr. Moolenaar. --can be done. I know there's a company, and 
you may have heard about this, that has been working for 30 
years to get a 404 CWA permit. Are you familiar with the ESG 
companies?
    Ms. McCarthy. No, I don't believe so.
    Mr. Moolenaar. They recently testified in the Senate 
Committee on Environment and Public Works, and the vice 
president stated that the EPA is working to change the rules 
again with the regulation, WOTUS, that would redefine the scope 
of waters protected under the Clean Water Act. They are trying 
to accomplish this by adding new terms, definitions and 
interpretations of federal authority over private property that 
are more subjective and provide them with greater discretionary 
latitude, and you know, I'm just concerned that that may be an 
indication of what other companies are experiencing, and I 
think you know that Justice Kennedy stated that the region's 
systemic consequences of the Clean Water Act remain a cause of 
concern. So I would just again encourage you to revisit this.
    I've only got a minute left, but I also want to talk to you 
about Flint because--and I had hoped that there might be some 
Democrats here who would want to, you know--because I know 
there was significant interest a while back from the Democrats 
on what happened in Flint, and----
    Ms. McCarthy. And there still remains a lot of concern.
    Mr. Moolenaar. Well, and you know, is the water in Flint 
safe to drink?
    Ms. McCarthy. Well, right now we're using filters and 
bottled water but we're making progress and we're hoping that 
there'll be some new testing done actually this month and 
available to us early next to tell us whether we've now got the 
system where it needs to be.
    Mr. Moolenaar. And then do you--I mean, in hindsight, do 
you wish you would have listened to Miguel del Toral, who kind 
of raised this issue almost a year in advance before the EPA 
took action to address the problem? I mean, he's an EPA 
employee, and at some point people weren't listening to him.
    Ms. McCarthy. Well, I'm not sure whether he would 
characterize it that way so I don't want to speak for him, but 
had I known earlier the situation that was happening in Flint, 
I absolutely would have raised a red flag from the highest 
mountaintop.
    Mr. Moolenaar. And do you feel----
    Ms. McCarthy. And the fact is, I did not.
    Mr. Moolenaar. A while back you told me that you believed 
the EPA Region 5 Administrator, Susan Hedman, was a hero.
    Ms. McCarthy. That's right.
    Mr. Moolenaar. My sense is that she should have been the 
one on point listening to the employee who was raising these 
concerns and taking action. I don't consider that heroic, and I 
guess I'm wondering if in hindsight that should have been 
addressed at the region level.
    Ms. McCarthy. Well, as you know, she did resign her 
position because I think she felt that she should have known 
and wanted to make sure that wasn't distraction on us focusing 
on the people in Flint, and I think it resulted in that.
    You know, I think there are a lot of failures in the 
system. We're trying to address those and the way in which we 
work and do oversight, but it was an extraordinarily 
challenging circumstance that in hindsight, if we could have 
addressed it earlier, it would have been all the better. So I 
can--I'm not defending the agency or anybody on Flint. The only 
thing I'm doing is trying to fix the situation and learn from 
it as best I can and make sure that there are no other Flints 
out there, and we'll do the best from this point forward.
    Mr. Moolenaar. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Moolenaar.
    The gentleman from Texas, Mr. Babin, is recognized.
    Mr. Babin. Thank you, Mr. Chairman, and thanks for being 
here, Administrator McCarthy.
    Ms. McCarthy. Thank you, sir.
    Mr. Babin. On April 28th, this Committee heard testimony 
from Region 10 Administrator Dennis McLaren about the EPA's 
efforts to limit the potential Pebble Mine project by using 
Section 402(c) of the Clean Water Act before the project had 
even applied for a permit.
    Ms. McCarthy. That's correct.
    Mr. Babin. The Committee demonstrated to Mr. McLaren that 
it has uncovered that EPA employees used non-official email 
accounts to discuss the Pebble Mine matter with mine opponents 
and determined that EPA employee Phil North provided edits and 
suggestions to a petition letter, which EPA claims is the 
impetus for starting the preemptive 404(c) process. The EPA 
Office of Inspector General found in agreement with your agency 
that this official may have misused his position as a federal 
government employee, and according to documents and deposition 
testimony received by this Committee prove that the petition 
from Alaska Native tribes the stated impetus for Region 10's 
Bristol Bay Watershed Assessment was in fact drafted with the 
help of at least one EPA employee.
    Doesn't this fact along with other EPA briefing materials 
and communications prove that the assessment was done solely to 
provide the political cover for an eventual Pebble veto? 
Doesn't this in fact prove that?
    Ms. McCarthy. Sir, I don't want to speak to anybody's 
motivations and we'll certainly address the issues that you've 
raised, but the motivation for taking action under 404(c) was 
multifaceted, the first and foremost being the value of Bristol 
Bay and the amount of jobs that Bristol Bay provides----
    Mr. Babin. But they had not had a chance to even file their 
plan yet, so how would you know that?
    Ms. McCarthy. Well, they have had ample years prior to us 
using--initiating this process, and they continue to have 
opportunities to submit a permit. The simple issue is that they 
were disrupting that area in a way that made us worry about 
our----
    Mr. Babin. Well, it just seems----
    Ms. McCarthy. --ability to----
    Mr. Babin. It seems very, very specious that one of your 
employees would be helping to draft this type of a document.
    Next question. The Committee has uncovered documents that 
show that EPA employee Richard Parkin stressed the following 
before a group supportive of EPA's action to stop the Pebble 
Mine: ``While a 404(c) determination would be based on science, 
politics are as big or a bigger factor.'' Does this concern you 
that this was the sentiment of a career employee or employees 
at the EPA with regard to the agency's determination regarding 
the Pebble Mine?
    Ms. McCarthy. Sir, again----
    Mr. Babin. Does that not raise a red flag with you?
    Ms. McCarthy. Sir, again, I have no idea what he was 
referring to or talking about. I know what----
    Mr. Babin. What he was referring to is that politics----
    Ms. McCarthy. --actually happened at the agency.
    Mr. Babin. --would be as important or more important than 
the science. That doesn't concern you?
    Ms. McCarthy. I don't know what politics he's talking 
about. I know the reality of decision-making in the agency. I 
know why we moved down this road, and I know what we were 
trying to protect, and you know, one of the missing pieces that 
I just want to make sure you are aware of is that in the 
history of the EPA and its relationship with the Corps on 
404(c), the Corps has done two million permits. We have only 13 
times ever used this, and it's because of the uniqueness of 
that resource----
    Mr. Babin. This----
    Ms. McCarthy. --and the challenge that the tribes had that 
rely on that salmon fishery.
    Mr. Babin. All right. Peer reviewers repeatedly warned EPA 
that the assessment was insufficient as a basis for a 
regulatory decision, a claim that the EPA publicly agreed with. 
Why did the agency then rely exclusively on the assessment when 
it launched the 404(c) determination?
    Ms. McCarthy. It didn't, sir. The assessment wasn't part of 
the 404(c). The assessment was looking at the value of the 
watershed. The documentation that was produced in the 404(c) 
process by the region was actually the policy and regulatory 
action. Did it consider the science? Absolutely, but that 
science document was not a policy document or a regulatory 
document.
    Mr. Babin. It sounds like the politics trumped the science 
to begin with.
    Ms. McCarthy. I don't consider policy to be politics or 
regulations to be. They're entirely different vehicles and I 
think appropriate to use for the agency.
    Mr. Babin. All right. Thank you.
    Isn't it true and hasn't your agency openly acknowledged 
that a preemptive veto of this kind had never been done before 
in the history of the Clean Water Act? Wasn't this the first of 
its kind?
    Ms. McCarthy. I don't--I'm not--I don't know. I don't--I 
can't answer with certainly. I'm happy to get back to you on 
it.
    Mr. Babin. I hope so.
    Well, anyway, my time's expired, Mr. Chairman, so I thank 
you very much.
    Chairman Smith. Thank you, Mr. Babin.
    The gentleman from New York, Mr. Tonko, is recognized for 
his questions.
    Mr. Tonko. Thank you, Mr. Chair, and Administrator, 
welcome.
    Ms. McCarthy. Thank you.
    Mr. Tonko. You always do your job with great forcefulness 
and intellect, so we thank you for that.
    Today's hearing appears to be a revival of hearings we've 
held before, proposals that strengthen standards to protect 
public health and to protect our environment, an environment 
that we're going to then extend to the next generations, and 
claims that meeting these standards will be too costly, 
possibly not achievable, and in general a serious drag on our 
economy. So, you know, here we go again. So I have a few 
questions for you.
    Let me start where you just ended. Proponents of the Pebble 
Mine accuse EPA, particularly Phil North, of inappropriately 
colluding with tribal groups. Region 10, I'm informed, 
according to the EPA website, includes some 271 Native tribes 
in its jurisdiction. Can you speak to EPA's special 
responsibility to tribal governments, and if you could, 
Administrator, compare that with EPA's relationship with the 
given states and outside interest groups?
    Ms. McCarthy. Actually, with the tribes, we have, I think 
you know, a very special relationship because we treat them as 
government entities. We have a trust responsibility in our work 
with the tribes, and I think we paid very strong attention to 
the tribes as well as states that had concerns about protecting 
what is one of our most precious resources, Bristol Bay and its 
salmon fisheries, and we worked very closely with both the 
states but most importantly, there are tribes there whose 
culture depends on salmon. It is their livelihood as well as 
the focus of their lives and their community, and I think we 
were very cognizant of that when the region was looking at 
whether or not 404(c) was an appropriate step to take. For 
states, work with states and local communities, in general, we 
have a partnership relationship with them. They are co-
regulators for many of the work we do. We delegate 
responsibilities to them and we try to be a good partner in 
terms of providing the kind of web of protection that Congress 
intended.
    Mr. Tonko. Well, we appreciate that, and again, thank you 
for the leadership that you provide the agency and the country.
    Let me switch to CASAC, the Clean Air Science Advisory 
Committee. I believe it was created in 1977 with the Clean Air 
Act Amendments. Their first report on ozone came out in the 
mid-1980s, and there have been a number of subsequent reviews 
over the past 35 years with much new research since the 
original report. Has CASAC found that ozone is less of a health 
risk than 1980s science determined that it was?
    Ms. McCarthy. No. They actually on the basis of much more 
robust science understand just how damaging ozone is to our 
public health.
    Mr. Tonko. And does it contribute less to other 
environmental problems--damage to plants, to visibility and 
other effects?
    Ms. McCarthy. No. We understand it's more than we had 
anticipated then.
    Mr. Tonko. So, if anything, research over the years has 
confirmed that ozone is a health risk and an environmental 
problem. Is that correct?
    Ms. McCarthy. That is correct. That was the basis of recent 
decisions that were made, yes.
    Mr. Tonko. And have past standards been criticized on the 
basis of their projected costs and/or benefits?
    Ms. McCarthy. Yes, most, if not all, yes.
    Mr. Tonko. Well, it's interesting because I believe that 
it's clear that we have been able to achieve cleaner air and 
grow the economy as we have strengthened the standards. Is that 
now not indeed the outcome?
    Ms. McCarthy. That's very accurate, yes.
    Mr. Tonko. And is there any reason to believe we cannot 
keep that record going?
    Ms. McCarthy. No.
    Mr. Tonko. You know, will the states have flexibility and 
discretion to determine how they might meet new standards in 
the most cost-effective manner?
    Ms. McCarthy. In the wisdom of Congress, that's how it was 
defined and designed, yes.
    Mr. Tonko. And as I understand it, EPA and others have 
estimated the benefits achieved by lowering the ozone standard. 
Can you please elaborate on what those benefits are about?
    Ms. McCarthy. Sure. Give me one second to pull it up. The 
benefits--the health benefits are estimated to be $2.9 to $5.96 
billion. That relates to issues relative to our kids in 
reducing asthma attacks and visits to the hospital. It has to 
do with cardiovascular improvements for adults and especially 
the elderly. So it's direct public health benefits, which 
considerably outweigh the costs, which are estimated to be $1.4 
billion.
    Mr. Tonko. Thank you. You know, I've exhausted my time, but 
I do want to thank you for leading the fight for clean air, 
clean water, response to climate change, a legacy that will 
imprint itself not only for this given political generation but 
for generations to follow.
    Ms. McCarthy. Thank you.
    Mr. Tonko. With that, Mr. Chair, I yield back.
    Chairman Smith. Thank you, Mr. Tonko.
    And the gentleman from Alabama, Mr. Palmer, is recognized 
for his questions.
    Mr. Palmer. Mr. Chairman, I'd like to take this discussion 
a little different direction, if I may. I have a video I'd like 
for Administrator McCarthy to watch along with everyone in the 
room.
    [Video playback].
    Mr. Palmer. You know, it's very easy to sit here and have 
this discussion about all these regulations and try to deny 
that they have an impact on people but, you know, you are 
having an impact on people and unnecessarily so. You've 
destroyed thousands of jobs. You've impacted thousands of 
families, not just Alabama families but families all over the 
country, and I don't look at them as collateral damage. I mean, 
here's a guy who one of those families sat there and he cried 
through the interview. You got another guy whose wife's 
diagnosed with cancer right after he lost his job, two 
daughters having to drop out of college. You know, there's a 
price to pay for this, and you know, you may deny that this is 
impacting things.
    You know, the Energy Information Administration projects 
EPA's Clean Power Plan is going to kill 376,000 jobs in 2030, 
reduce GDP by about $58 billion. You've got a room full of 
young people here that all they're hearing is this climate 
change agenda. You talk about asthma. Asthma rates have gone up 
even though air quality has dramatically improved. You're not 
getting the whole story here, and I think the American public 
needs to get the whole story.
    You talk about it impacts people. I just want to read you 
some highlights from a recent report by Mr. Oren Cass, who 
testified before our Committee this past December, and I'm 
submitting this report, Mr. Chairman, for the record. 
``President Obama's policies for tackling climate change would 
impose heavy costs borne disproportionately by lower income 
U.S. households.'' There's been a lot of talk today about how 
important is to take care of lower income people. His Clean 
Power Plan and proposal for a $10.25-per-barrel oil tax or 
equivalent of a 25 to 30 per-ton carbon tax would cost 
American's poorest families tens of billions of dollars per 
year. For households in the lowest quintile, such policies are 
equivalent to more than 160 percent of federal income tax.
    I just want to share something with you. Again, the 
National Energy Assistance Survey shows that because of the 
difficulty they face in paying utility bills, these households 
are forced to make choices that carry serious health risk. As 
many as thirty-seven percent went without medical or dental 
care. Thirty-four percent did not fill a prescription or took 
less than their full dose of prescribed medications. In 
addition, twenty-four percent went without food at least one 
day, and nineteen percent became sick because the home was too 
cold. These were decisions that low-income people made because 
their energy costs went up because of the EPA's policies, and 
we're talking again hundreds of thousands of jobs that have 
been lost.
    Administrator McCarthy, if you don't remember anything else 
out of this hearing today, I want you to remember the faces and 
the voices of the people who have had their lives absolutely 
destroyed by the EPA's policies.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Palmer.
    And the gentleman from Georgia, Mr. Loudermilk, is 
recognized for his questions.
    Mr. Loudermilk. Thank you, Mr. Chairman, and thank you, 
Administrator McCarthy, for being here today.
    I would like to go back to the line of questioning that 
Representative Lucas brought up, the glyphosate studies that 
were done, and for the benefit of those who haven't been 
following this and those who may be watching on television, let 
me just go back to review. This is a herbicide that is widely 
used both commercially and residentially. I've used a 
particular product to kill weeds. It does a very good job at 
it. In 1986, the EPA ruled or classified this as a group B 
chemical, which in layman's terms says there's no evidence that 
it causes concern. We are determining that there's no evidence 
that it does. And then in 1991, it was classified by the EPA as 
a group E, which says there is evidence that it does not cause 
cancer. So it sounds like we're finding out that this is 
actually a safer product than what we actually envisioned it to 
be.
    Then there was a term, because in March of 2015 the 
International Agency for Research on Cancer did a study saying 
that it probably is carcinogenic, it probably does cause 
cancer, which from what it appears as it prompted the EPA to do 
another study, which I can understand. Somebody else says that 
it probably does cause cancer, then we're going to study it for 
ourself. But in September 16th of 2015, the Cancer Assessment 
Review Committee of the EPA basically countered what the 
international study and said it's not likely to be carcinogenic 
to humans.
    So with that, my question to you is, did any EPA officials 
work on IARC's glyphosate review?
    Ms. McCarthy. Well, let me just clarify one thing if I 
might, and then I'll answer your question. It wasn't what 
prompted the review.
    Mr. Loudermilk. Okay.
    Ms. McCarthy. This was a standard regulatory----
    Mr. Loudermilk. So it was just a regular review?
    Ms. McCarthy. Yes.
    Mr. Loudermilk. But here we got an international committee 
that says something different than what our team of scientists 
have determined. So--but we came up with something different. 
Was anyone at the EPA actually working with IARC or 
participating in that review?
    Ms. McCarthy. Actually, nobody was involved in the question 
of the carcinogenicity of glyphosate. We had three EPA 
employees. One was actually there as an observer. He 
participated----
    Mr. Loudermilk. But did not--who was that?
    Ms. McCarthy. Hang on one second and I will----
    Mr. Loudermilk. Was that Peter Egeghy?
    Ms. McCarthy. Hang on. We had--while I'm looking, I'll give 
you the names.
    Mr. Loudermilk. We have limited time so----
    Ms. McCarthy. One was--participated in information relative 
to exposure.
    Mr. Loudermilk. Okay.
    Ms. McCarthy. It was not relative to the carcinogenicity. 
None of them had any----
    Mr. Loudermilk. No one participated in the work?
    Ms. McCarthy. And one had to do with some of the tox 
information and how we helped them categorize it.
    Mr. Loudermilk. Okay. Your staff did indicate to us that 
Matthew Martin participated in the IARC conference but did not 
participate in the glyphosate review.
    Ms. McCarthy. Yes, and I have a Mr. Egeghy.
    Mr. Loudermilk. Egeghy?
    Ms. McCarthy. Right.
    Mr. Loudermilk. And he did do some limited participation. 
Is that correct?
    Ms. McCarthy. He actually just--he helped to draft and 
review portions of the human exposure. There were a number of 
pesticides being looked at at the same time.
    Mr. Loudermilk. Okay.
    Ms. McCarthy. It really had nothing to do with its 
carcinogenicity.
    Mr. Loudermilk. Okay.
    Ms. McCarthy. He looked at how it was used and that kind of 
thing.
    Mr. Loudermilk. And this was all in Lyon, France, with the 
112----
    Ms. McCarthy. I don't know where he was when he was----
    Mr. Loudermilk. Can we bring up the slide? I have an email, 
if you could bring that slide up, and this email--obviously it 
was Frank is responding to--or Matt is responding to Frank, who 
is part of the IARC, and if you notice on the first line of the 
original email, it says ``First, may I repeat it was a real 
pleasure to meet and work with you for IARC monograph volume 
112,'' which is the subject that we're talking about. And of 
course, the subject of the email is ``DZN and GLY'' which is 
indicating that glyphosate is what they're talking about. If 
Mr. Martin was not involved in glyphosate review, why is on the 
email chain with the team that was working on that?
    Ms. McCarthy. I can go back and look but I am--I have asked 
a number of times, and my understanding is that none of these 
individuals were there in the EPA capacity to participate in 
the issue of carcinogenicity.
    Mr. Loudermilk. Okay.
    Ms. McCarthy. Clearly, we have understanding of glyphosate 
and the other pesticides that were being looked at.
    Mr. Loudermilk. Can we pull up the next slide as well?
    [Slide]
    Mr. Loudermilk. In our second slide here--excuse me, let me 
make sure I get my proper slides up----
    Ms. McCarthy. My glasses are good but not that good.
    Mr. Loudermilk. Well, this is again an email that's to a 
distribution list of those who were working on the glyphosate 
review, and Mr. Martin is also included on this, which this 
happens to be a list of talking points of how to answer the 
questions on glyphosate. So again, my question is, if he didn't 
participate in the glyphosate review--here's what I'm getting 
at.
    Ms. McCarthy. He----
    Mr. Loudermilk. I'm concerned that there is some 
interference between EPA and the IARC, and let me jump to one 
other----
    Ms. McCarthy. Could I just clarify on Mr. Martin? He 
apparently was involved in the review for glyphosate but he 
didn't participate in the issues relative to its 
carcinogenicity. So I just wanted to make that clear. That was 
an entirely separate part of the----
    Mr. Loudermilk. Well, Mr. Jess Rowland was the lead--he was 
the chair of the Cancer Assessment Review Committee that did 
the actual report that was contrary to what the IARC--and we 
would like to be very interested in interviewing Mr. Rowland 
but I understand that he is retired from the EPA. Do you know 
when he retired?
    Ms. McCarthy. May of 2016. He went there as an observer. As 
far I know, he did not participate in the IARC process. Can I 
clarify? Because I made a mistake.
    Mr. Loudermilk. Okay. Very quickly.
    Ms. McCarthy. It says Mr. Martin was a computational 
toxicologist. He wasn't involved in the IARC review for 
glyphosate but he did participate in the IARC conference on 
other matters, and we have no toxicological data on glyphosate 
so he couldn't have contributed to the carcinogenicity issue.
    Mr. Loudermilk. Well, one of the lines in the email thanked 
him for his work but----
    Ms. McCarthy. Well----
    Mr. Loudermilk. --let me move forward because I'm really 
interested in Mr. Rowland and his retirement.
    Ms. McCarthy. Okay.
    Mr. Loudermilk. Does his retirement have anything to do 
with the controversy over the CARC report?
    Ms. McCarthy. Not that I am aware of. He worked for the 
agency for many years is my understanding.
    Mr. Loudermilk. Have you investigated whether or not these 
circumstances are linked? It's just interesting, right after 
this report comes out that is contrary to what the 
international agency has determined that--now--and I have the 
report here if we can bring it up. It is stamped as a final 
report----
    Ms. McCarthy. It's a final memo.
    Mr. Loudermilk. --which--well, it actually says ``final 
report,'' not memo on the page, which indicates to me this is 
final, it's done, but you can understand the concern we have 
here is that it's a final report but maybe it didn't turn out 
the way that you anticipated it would so now we need to study 
it a little bit more.
    Ms. McCarthy. I know that the mistake that was made by the 
contractor to post this has caused all kinds of conspiracy 
theories to erupt but there's nothing that's unusual about the 
process we're following with this and we'll do it on the basis 
of the science----
    Chairman Smith. The gentleman----
    Ms. McCarthy. --and I don't want you to think that anyone, 
including me, is prejudging what our scientists say about this.
    Mr. Loudermilk. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. The gentleman yields back. Thank you, Mr. 
Loudermilk.
    And the gentleman from Ohio, Mr. Davidson, is recognized 
for his questions.
    Mr. Davidson. Thank you, Mr. Chairman.
    Administrator McCarthy, thank you. I was pleased earlier 
that you were personally familiar with the Waters of the U.S. 
Rule as you discussed with my colleague from Michigan, and my 
understanding is that this rule was a joint rule between the 
EPA and the Army Corps of Engineers. Is that correct?
    Ms. McCarthy. That is correct.
    Mr. Davidson. Were you aware that the Army Corps of 
Engineers raised some technical concerns? Were they in the end 
supportive of your rule?
    Ms. McCarthy. That's my--that certainly is my understanding 
in my communication with the Assistant Secretary who oversees 
the Corps, yes.
    Mr. Davidson. Are you familiar with concerns that they 
raised during the rulemaking process?
    Ms. McCarthy. Not each of them because that was handled at 
the career staff level.
    Mr. Davidson. Are you familiar with a series of memos known 
as Peabody memos from Major General Peabody?
    Ms. McCarthy. I am now aware of them, yes.
    Mr. Davidson. Okay. Are you aware that in a 27 April 2015 
memo, General Peabody says ``The just-completed review reveals 
that the draft final rule continues to depart significantly 
from the version provided for public comment.''
    Ms. McCarthy. I am aware that a few memos were written. I 
was not aware of them at the time but that's an internal Army 
Corps issue that I assume was raised and resolved during----
    Mr. Davidson. They weren't talking about what they shared 
with the public. They were talking about what you shared with 
the public.
    Ms. McCarthy. No, they actually issued the proposal with us 
and issued the final as well.
    Mr. Davidson. It seems to me that they raised the concern 
that what was being shared with the public is what's different 
than what was in the final rule, what was in the rulemaking 
process.
    Ms. McCarthy. Well, my belief is that you listen to public 
comment and you make changes that you think are reasonable 
after deliberating on that. That was the process that we 
followed.
    Mr. Davidson. Did you listen to the Army Corps?
    Ms. McCarthy. We certainly did. They were a partner in 
this. They had to sign off on it. They issued the rule with us. 
It was jointly done.
    Mr. Davidson. Do you know why in a May 15th, 2015, 
concluding statement to a memo, General Peabody would conclude 
``We stand ready to assist the EPA in improving the technical 
analysis and to develop logically supportable conclusions for 
these documents if and when requested.''?
    Ms. McCarthy. It sounds like a collaborative partnership.
    Mr. Davidson. It sounds like he's got concerns that the 
documents are not logically supportable and that perhaps they 
were not previously requested, therefore, they were ready, to 
me.
    Earlier in this memo, he provides the support for his 
conclusion. He says, ``To briefly summarize, our technical 
review of both documents indicate that the core data provided 
the EPA has been selectively applied out of context and mixes 
terminology and disparate data sets. In the Corps' judgments, 
the documents contain numerous inappropriate assumptions with 
no connection to the data provided, misapplied data, analytical 
deficiencies and logical inconsistencies. As a result, the 
Corps' review could not find a justifiable basis in the 
analysis for many of the document's conclusions. The Corps 
would be happy to undertake a comprehensive review with the EPA 
to help improve these supporting documents, which we recognize 
are critical to the rulemaking.'' Have you read that before?
    Ms. McCarthy. I may have, sir, but that was an internal 
Army Corps issue, and again, the Army Corps signed off on this 
so those issues had to have been internally resolved between 
them and us and certainly internally at the Corps.
    Mr. Davidson. Don't those concerns fit with the pattern 
that the Chairman of this Committee has raised with you, that 
in fact, the EPA has been selective in applying this? This is 
not just some pernicious claim, this is supported by what's 
actually happening by our uniformed officers. This is a general 
in our Army. Would you recognize the Army Corps as an 
authoritative body with respect to rulemaking on the Waters of 
the United States?
    Ms. McCarthy. Which is why I was satisfied by them signing 
off on the rule itself. There is much deliberation that goes on 
among the staff. I think that's healthy. I think we should 
challenge one another so our rule is legally sound and based on 
science.
    Mr. Davidson. It seems to me that the Army Corps' advice 
was ignored and by a political appointee, the Administrator, 
disregarded what the sound science of the Army Corps was doing. 
I don't want to jump to conclusions, but there's enough 
concerns that there's a stay thankfully blocking the 
implementation of this rule.
    Earlier you spoke with one of our colleagues, and in fact, 
the Chairman, about saying that the EPA does not distort the 
market and in fact follows the market. Is that your view of 
what the EPA does?
    Ms. McCarthy. I believe in the Clean Power Plan, we 
recognized a market--the market transition in the energy world, 
and we did our best to follow it knowing full well that that 
was the least and most cost-effective way to do it.
    Mr. Davidson. If you don't distort the market, then what is 
it that you're actually accomplishing if you're not actually 
steering the market in some way?
    Ms. McCarthy. Well, we're doing our--under the law what 
we're required to do, which is follow the Clean Air Act, which 
actually requires us to address pollution that endangers public 
health.
    Mr. Davidson. Are you attempting to steer the market with 
respect to your pending 4,000-page rule on medium-duty diesel 
engines?
    Ms. McCarthy. I'm not--we are not attempting to steer the 
market. In this issue, we are attempting to reduce pollution. 
What we try to do is understand where the market is heading so 
that we can get the most cost-effective, flexible way to 
achieve the reductions while letting the market drive how to 
get there. That is exactly what we did with the Clean Power 
Plan, and we do it every opportunity we can get.
    Mr. Davidson. My time is expired. Thank you.
    Chairman Smith. Thank you, Mr. Davidson.
    And the gentleman from Arkansas, Mr. Westerman, is 
recognized.
    Mr. Westerman. Thank you, Mr. Chair, and Administrator 
McCarthy, I believe that you desire to see the United States 
lead the world in environmental protection. Is that a fair 
statement?
    Ms. McCarthy. Certainly to the extent that Congress gives 
me that charge.
    Mr. Westerman. Are there other countries or regions of the 
world that are doing good things for the environment such as 
Western Europe, U.K., or the Netherlands?
    Ms. McCarthy. I'm sure that every country is doing the best 
they can and some have very interesting programs that they've 
initiated.
    Mr. Westerman. So any of those in particular that----
    Ms. McCarthy. Nothing that I want to highlight, no.
    Mr. Westerman. Okay. Secretary Vilsack sent a letter to the 
U.K. Secretary of State for Energy and Climate Change in which 
he wrote, ``The U.S. wood pellet industry increases our 
forested area, reduces greenhouse gas emissions, and improves 
U.S. forest management practice.'' He went on to state, 
``Demand for wood pellets also delivers compelling carbon and 
societal benefits to the United States. Independent analysis 
undertaken has consistently shown that demand for wood pellets 
promotes U.S. forest growth and reduces risk to U.S. forests.'' 
And without objection, I'm going to submit this letter for the 
record.
    [The information appears in Appendix]
    Mr. Westerman. Given this stated position of the Secretary 
of Agriculture, how will EPA take into account these comments 
in the scientific analysis on which it is based?
    Ms. McCarthy. We are in the middle of looking at different 
types of biomass for its use and how we can account for the 
greenhouse gas benefits. We are in a science process with our 
Science Advisory Board to develop an appropriate accounting 
process for that. So we're excited to be able to make progress 
in that because we do believe that there are many types of 
biomass that really will provide us an opportunity to move 
forward with----
    Mr. Westerman. Do you disagree----
    Ms. McCarthy. --reductions in greenhouse gases.
    Mr. Westerman. --with the Secretary's position, what he 
stated about wood pellets and the use of biomass and wood 
pellets? Is there still science to be determined on that or the 
science that he based his analysis on correct?
    Ms. McCarthy. I'm happy to talk to him and see what is the 
basis of his letter. I don't think that we're in disagreement. 
I think he knows that we're in a process to try to better 
account for those emissions.
    Mr. Westerman. Okay. And I was jotting down a few of the 
things you were saying earlier about people are expecting us to 
take reasonable actions, that you're following the science. I 
hope that you would continue to do that.
    You also said that the, switching gears a little bit, the 
Gold King Mine is a disaster. You said you're doing your best 
to hold people accountable. I want to talk a little bit about 
the Gold King Mine spill that took place last August.
    Ms. McCarthy. Okay.
    Mr. Westerman. Given the gravity of the situation, is it 
fair to say that you took that spill very seriously?
    Ms. McCarthy. Yes.
    Mr. Westerman. And you've conducted your own internal EPA 
investigation?
    Ms. McCarthy. We have for the most part relied on 
independent investigations by both internally with our Office 
of Inspector General as well as externally.
    Mr. Westerman. So what EPA employees did you find to be 
responsible for the Gold King Mine spill?
    Ms. McCarthy. We did not find that anyone was derelict in 
their duties but we continue to have investigations and we're 
going to wait to see what they say.
    Mr. Westerman. So you didn't find anybody to be at fault in 
this mine spill?
    Ms. McCarthy. So far, the reports that I have read that 
were independent continue to show that we were there working 
with the state and those communities to try to prevent the 
tragedy, that preliminary site work did cause a problem there 
and we've done our best to try to make sure that we take 
responsibility for that and work with those states and 
communities and tribes to resolve this.
    Mr. Westerman. So given your commitment and expertise on 
the issue, who was the EPA on site coordinator the day of the 
Gold King Mine spill?
    Ms. McCarthy. I can't recall his name. I'm sorry.
    Mr. Westerman. I believe his name is Mr. Griswold, Hayes 
Griswold.
    Ms. McCarthy. Yeah, that was it. Sure. Thank you.
    Mr. Westerman. So is Mr. Griswold responsible for the Gold 
King Mine spill?
    Ms. McCarthy. I think the actions of EPA certainly caused 
the spill. It depends on what you think of ``responsible.'' If 
that indicates that he did something wrong, I'm certainly not 
willing to say that.
    Mr. Westerman. So is he to blame for the Gold King Mine 
spill?
    Ms. McCarthy. I think what's to blame is a history of those 
mines being left and abandoned where we knew there was a 
problem and EPA came in to try to help fix it. Did we fix it? 
No.
    Mr. Westerman. So who's to blame for the spill?
    Ms. McCarthy. Well, the spill happened. The spill happened 
because we were doing preliminary----
    Mr. Westerman. Because somebody----
    Ms. McCarthy. --work to try to resolve----
    Mr. Westerman. --failed in their execution of the project. 
Has Mr. Griswold been reprimanded or received training or a 
suspension for his role as onsite coordinator?
    Ms. McCarthy. I do not believe so.
    Mr. Westerman. As head of the EPA, do you take 
responsibility for the spill?
    Ms. McCarthy. I take responsibility for the agency's role, 
certainly I do.
    Mr. Westerman. So you take responsibility of the agency's 
role, which was to the on-scene coordinator, so I'm trying to 
connect the dots here.
    Ms. McCarthy. So we have many responsibilities here, and we 
have a responsibility not just to explain ourselves why we're 
there, what we were doing, what we thought contributed to the 
problem. We have a responsibility to look at how we long-term 
monitor that situation. We have a responsibility to look at 
whether or not we can help effect a solution, which will be 
hopefully looking at whether or not it's appropriate for 
listing as a Superfund site. We have responsibilities to take a 
look at whether our notification was good and how to make it 
better.
    Mr. Westerman. Do you have a responsibility to hold 
somebody accountable?
    Ms. McCarthy. If somebody did something that was incorrect 
and inappropriate----
    Mr. Westerman. That was last August. Has anybody been held 
accountable for the spill?
    Ms. McCarthy. We are all held accountable for the spill. If 
you ask me whether I----
    Mr. Westerman. Has anyone been reprimanded or faced any 
consequences for their role----
    Ms. McCarthy. Not that I'm aware of.
    Mr. Westerman. I've exceeded my time, Mr. Chairman. I yield 
back.
    Chairman Smith. Thank you, Mr. Westerman.
    And the gentleman from California, Mr. Knight, is 
recognized for his questions.
    Mr. Knight. Thank you, Mr. Chair, and thank you, 
Administrator, for being here today.
    Just a couple notes to clarify the record. Yes, Texas does 
have the most wind. There is no doubt about that, but 
California leads in solar by a huge, huge margin, and I think 
it's absolutely laughable that we think that 1.78 percent over 
the last year is great growth, but that is what we have.
    You're aware that this Committee has been very active in 
attempting to understand the 2015 Ozone National Ambient Air 
Quality Standards. This Congress alone, we have held three 
hearings and sent numerous letters to EPA on the topic. 
Democrat Senator Michael Bennett stated that this ozone 
regulation is a perfect example of applying the law but doing 
it in a way that doesn't make sense on the ground. State air 
regulators from Texas, California, Arizona, and Utah have 
testified before Congress calling for a delay in implementation 
because EPA is unprepared to take background ozone into account 
when implementing the standard.
    Now, I come from California, and it is very, very clear 
that ambient is a problem, that--that air standards that we do 
not have an effect on, that we did not create is a problem in 
California. The problem is, if we didn't create it and yet we 
are responsible for it because of standards, it makes it very, 
very difficult for us to be in compliance. In fact, we'll be 
out of compliance and we will be at a problem with these types 
of standards. The background ozone issue is one that is very 
important. Do you think that the EPA has adequately addressed 
the concerns of the states that have identified background 
ozone as an issue for compliance, much like California?
    Ms. McCarthy. I think we have made great progress. Areas 
like California have actually a considerable amount of local 
and regional ozone that is being emitted by manmade activities, 
which falls well outside the boundaries of background. So we've 
held a conference. We've developed a white paper. We have put 
together, one a rulemaking, one a guidance that's been proposed 
and will be finalized to try to make it understandable and 
easier for states to take a look at wildfires that cause these 
types of exceedances. If we can document anything that's coming 
into nationally, we certainly recognize that that's not 
something that the state will be responsible for. So we think 
we've made a lot of progress, but as you know, we continue to 
work with states on the implementation.
    Mr. Knight. But you also understand that at certain states, 
and I won't be too over-the-top about California, but certain 
states do have certain issues that other states just do not 
have. In fact today, we have major wildfires that are affecting 
the air that we breathe, and that is something that happens in 
California every summer without a doubt. We wish it didn't 
happen but it does happen, and----
    Ms. McCarthy. Sir, that's why we're putting out a guidance 
document. We are well aware, and in fact, with the changing 
climate, we're concerned that those wildfires are going to be 
more expansive and more frequent.
    Mr. Knight. Well, we're afraid of those wildfires when 
certain people go out and start those fires, but one witness 
told the Committee that due to background ozone, EPA's new 
ozone standard will unfairly punish communities due to air 
pollution they did not create and that the state cannot 
regulate. The National Association of Counties stated, 
``Additionally, a more stringent ozone standard challenges 
local governments' ability to increase economic development 
within their regions because areas designated as nonattainment 
can have a more difficult time attracting industry to their 
counties due to concerns that permits and other approvals will 
be too expensive or even impossible to obtain.'' Many areas in 
California today, you basically cannot do any more activity 
there because they have gone to the limit. That means the 
credits are no longer there or the credits have been taken by 
other areas that are ports in the southern California are 
almost to the very limit of what they can do because of the 
credit situation.
    Now, that's not EPA but that is exactly where I'm going 
with this with the standards that the EPA is setting, and that 
local or state areas are being the regulators for, much like in 
California because--and I'm sure in every state of this--of the 
diesel regulations that are coming that the EPA will or 
probably already is looking at regulations to change the diesel 
standards to have the states be in compliance.
    Ms. McCarthy. Well, sir, I recognize that California has 
incredible challenges, and a lot of that is related to 
geography and the weather there, and I perfectly well 
understand it, but what we know about this ozone standard is 
that the vast majority of counties that aren't achieving the 
standard now will be achieving it just as a result of national 
rulemakings that are moving forward, ones that are already on 
the books and in place and that you well know of. So we're 
working hard with the states to get there.
    But California's made tremendous progress, and they 
continue to look at every opportunity, and we'll keep working 
with them on it, but I don't think background is really the 
issue there. I think we've well documented the inventories that 
are contributing to the ozone problem and working hard with the 
state to see if we can figure that out.
    Mr. Knight. Well, I would agree that we have made many 
strides and I would agree that we have many challenges but I 
would disagree that background is an effort--or is a problem in 
California that basically we have to adhere to, just the West 
Coast, and it does affect all the way over to Arizona. It does 
come all the way over to states on the West that have to do 
that that other states do not have to, and I would appreciate 
looking into that a lot harder, and making sure that this is 
not something that's just discriminatory toward the West Coast.
    Ms. McCarthy. Thank you, sir.
    Mr. Knight. Thank you.
    Chairman Smith. Thank you, Mr. Knight.
    And the gentleman from Illinois, Mr. LaHood, is recognized.
    Mr. LaHood. Thank you, Mr. Chairman, and thank you, 
Administrator McCarthy, for being here. I know you've been here 
for over two hours, and appreciate your testimony here today.
    I know a couple of my colleagues have asked about the 
proposed Waters of the U.S. Rule, and in my district in 
Illinois, I represent a fairly heavy ag district, and I think 
the frustrating part for me is, when I travel around my 
district and I talk to people, you know, they ask all the time, 
well, you know, Darrin, how did this law get passed, what 
happened, how did this law get implemented, and I explain to 
them that this isn't in fact a law, this is a rule implemented 
by EPA that really circumvents Congress and circumvents the 
Constitution in a lot of ways and that really unelected people 
are putting in this rule, and they also couple that with the 
real-world effect that this rule's going to have on 
agriculture, whether that's a puddle or it's a stream or it's a 
creek on a farmer's land. And when I travel around my district, 
I can't find anybody that thinks this is a good idea, and you 
look at a rule or a law or a statute as fixing a problem. No 
one in my district thinks that there's a problem that needs to 
be fixed.
    And I would also point to you that back on October 9th of 
2015, the Sixth Circuit Court of Appeals, second highest court 
in our country, issued a stay on implementation of the rule on 
the Waters of the U.S.
    Ms. McCarthy. Yes.
    Mr. LaHood. And that decision, written decision, stayed, 
that said this rule cannot go forward. In there, they 
specifically cite a significant legal question as to whether 
certain parts of this rule are supported by science. Now, 
that's not Republicans saying that on Capitol Hill. These are 
two independent judges, second highest court in the country 
saying this.
    So when I look at that, I guess my question to you is, do 
you disagree with the court on the basis that this rule lacks 
science?
    Ms. McCarthy. Well, far be it from me to disagree with the 
court. We are going and hopefully with the full information 
available that we have that the court will have through oral 
arguments and our briefings in the record that the court will 
agree with us that it is well documented why we came to the 
decisions we made on the basis of science, on the basis of 
history of ours and Army Corps' experience here.
    You know, one of the biggest frustrations I have is that--
is the fact that I think the agriculture community really--we 
would benefit from further discussions on this because we have 
actually expanded the exemptions for agriculture. We have 
provided clarifications that should allow them to produce the 
food, fuel and fibre that we rely on. We did everything we 
could to make sure that it wouldn't add any permitting issues 
or responsibilities to the agriculture community. We did 
everything we could not just to protect their interests but to 
make their interests clearer and more sustainable.
    Mr. LaHood. Well, I appreciate that, but I mean, again, 
that's not what the Farm Bureau says, that's not what the 
Illinois State Farm Bureau, the American Bureau says. I don't 
think you're going to get that from anybody in agriculture 
thinks the way you're doing it.
    And I think the other thing is, there was lots of talk and 
rhetoric from the EPA and the Corps is, we're going to listen 
to your comments, give us all your comments, we're going to 
listen to them, we're going to take them into account, and I've 
seen the detailed merit-based comments that were given to you 
and your department and the Corps, and all of them in my 
estimation fell on deaf ears. None of them were taken into 
account when you look at the rule and how it's implemented and 
the effect that it has on them, and it's consistent in the 
agriculture community that people are absolutely opposed to 
this rule and the way that it's being put forth.
    The other thing that I would mention, you know, this--as 
you implemented this rule, you abided by the Administrative 
Procedure Act, the APA, in doing that, and you testified back 
on March 4th, 2015, in the Senate, and Senator Sullivan from 
Alaska had asked you about the WOTUS rule, and you--concerning 
the APA Act and following that, and you said there have been--
``There have been individuals represent various constituencies 
in the states that have commented but we have received over one 
million comments and 87 percent of those comments we have 
counted thus far are supportive of the rule." I find that 
absolutely hard to believe. Is that still your statement today?
    Ms. McCarthy. That is my understanding when folks looked at 
the record. That's correct.
    Mr. LaHood. Eighty-seven percent is supportive of this rule 
across the country?
    Ms. McCarthy. The comments, yes.
    Mr. LaHood. And has that changed since then? That was your 
testimony on March 4th.
    Ms. McCarthy. I don't know what--I haven't surveyed folks 
throughout the United States at this point to see whether or 
not they still would feel the same way.
    Mr. LaHood. And can you name for me any agriculture groups 
that are supportive of this rule today?
    Ms. McCarthy. I probably can't go down that road, sir. I 
know there's a lot of concern among the agriculture community. 
I think we've received certain letters and support from 
individuals. Whether or not there's any association, 
agriculture association, I can identify, I don't think I can.
    Mr. LaHood. And my time is almost up. And you're also aware 
there's another Federal District Court in the Dakotas that has 
also issued a stay here for many of the same reasons that were 
done in the Sixth Circuit. I think that was at the federal 
district level. Are you aware of that also?
    Ms. McCarthy. Yes.
    Mr. LaHood. Thank you. Those are all my questions, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. LaHood.
    And the gentleman from Louisiana, Mr. Abraham, is 
recognized.
    Mr. Abraham. Thank you, Mr. Chairman.
    Ms. McCarthy, let's you and I pick up a discussion that we 
left off on a previous hearing. In one of your previous 
appearances, you testified that ozone exacerbates asthma.
    Ms. McCarthy. Yes.
    Mr. Abraham. Yet you went on to specifically state, and I'm 
quoting here, that ``the scientists actually have not made any 
connection between the levels of ozone and the prevalence of 
asthma,'' and Mr. Chairman, I'll ask to submit for the record a 
letter signed by many, many Members of the House and Senate 
that questions EPA's anticipated health benefits.
    Chairman Smith. Okay. Without objection, that will be made 
a part of the record.
    [The information appears in Appendix]
    Mr. Abraham. Ms. McCarthy, are you familiar with some of 
the other factors that can exacerbate asthma other than ozone 
as the EPA claims?
    Ms. McCarthy. Sure.
    Mr. Abraham. Would you elaborate, please?
    Ms. McCarthy. Well, certainly. There are--we have an entire 
asthma portion of our agency that works with local communities 
to identify triggers for asthma attacks. That can have 
everything to do with dust in individuals' homes, so indoor air 
contributes significantly.
    Mr. Abraham. And what is the role of indoor pollution in 
asthma, in your opinion? What role that does that indoor 
pollution play?
    Ms. McCarthy. Mold and dust can certainly be triggers for 
asthma attacks.
    Mr. Abraham. So they can exacerbate it?
    Ms. McCarthy. They certainly can.
    Mr. Abraham. I mean, you know, I'm a doc and I've treated 
children with asthma for 20-plus years, and you know, I'll just 
read a partial list from the CDC and from medical textbooks 
that are exacerbaters of asthma: plant pollen, pet dander, 
dust, dust mite feces, cockroach feces, insect bites, mold, 
eggs, peanuts, soy, wheat, fish, shrimp, salads, fruits, 
respiratory infections, cold air, exercise, certain medications 
including aspirin, ibuprofen and naproxen, sulfites and 
preservatives in foods, and the list goes on and on.
    I guess the question that this leads to, you were having a 
discussion with Mr. Tonko about the benefits of cardiovascular 
disease with possibly ozone. I guess you believe it maybe 
exacerbates that. Did the EPA's final ozone NAAQS regulation 
take into consideration all these additional factors in its 
analysis to determine if a new standard needs to be implemented 
at this time?
    Ms. McCarthy. Actually, my understanding is that during the 
development of our Integrated Science Assessment, the look at 
all of the health and exposure information would have looked to 
determine whether or not outside ozone levels contributed to 
additional attacks or hospital visits and other things. So they 
would have factored those issues into those considerations.
    Mr. Abraham. And you know, let me remind you that, again, 
we had this back and forth last year, that the ozone levels 
have decreased dramatically over the last three decades yet 
asthma has gone up, and after all these years, you or your 
advisors have never really managed to connect those dots and 
look into the indoor air pollution aspect of it.
    Ms. McCarthy. Sir, you just indicated how many factors go 
into asthma attacks. The issue--the point I'm making is that it 
seems very clear from the science that outdoor ozone levels 
cause problems for kids who have asthma. That seems pretty 
clear to me.
    Mr. Abraham. And again, I could probably debate that on 
another day on an issue as far as, you know, I've seen some of 
your data that you rely on but I've seen other data that would 
refute that most mightily, let me say.
    What did your advisors say specifically about the issues of 
indoor air pollution and asthma?
    Ms. McCarthy. I do not believe that the information 
provided to me in terms of the science spent a great deal of 
time talking about indoor asthma.
    Mr. Abraham. So I mean----
    Ms. McCarthy. It talked about outdoor asthma, which is what 
we were looking at----
    Mr. Abraham. And I guess that's my point. You know, how can 
the EPA's analysis, how can you say it's complete if, you know, 
your advisors have really failed to address this issue----
    Ms. McCarthy. No, sir.
    Mr. Abraham. --and failed to understand the importance of 
indoor air pollution on these poor children.
    Ms. McCarthy. Because their reports to me looked at 
thousands of studies that actually did factor in different 
considerations that concluded based on the weight of evidence 
that ozone contributes to exacerbating asthma attacks. I don't 
know how much clearer I can get.
    Mr. Abraham. Well, I can be much clearer myself because 
I've seen thousands of studies also that would refute your 
scientific basis, and that's where we, I think, diametrically 
oppose each other is on your, what I will put in quotes, 
objective scientific data. I think it's flawed, and I think we 
can refute it on every level and turn. And again, nobody here 
wants to see a child's asthma get worse. We don't even want a 
child ever to have asthma. But I think we have to be honest and 
fair with the child and the family as to what's causing it, and 
again, I don't think we're addressing that fully.
    Ms. McCarthy. I think we've established that causal 
relationship.
    Mr. Abraham. I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Abraham.
    And the gentleman from Illinois, Mr. Hultgren, is 
recognized.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you, 
Administrator.
    I'd like to first submit for the record the following 
bipartisan letter from members of the Illinois delegation, both 
Republicans and Democrats, regarding the proposed closure of 
two nuclear power plants. A state report found--and I'd ask to 
submit that to the record.
    Chairman Smith. Without objection, it will be made a part 
of the record.
    [The information appears in Appendix]
    Mr. Hultgren. Thank you.
    A state report found that Illinois would lose 4,200 jobs 
and $1.2 billion in annual economic activity as well as 
significant increases in electricity rates and carbon emissions 
if these two plants closed their doors. Such a result would be 
bad for the State of Illinois and devastating for the 
communities in which they operate.
    The premature closure of these plants would also 
significantly impede the ability of the state to submit a 
viable implementation plan for the Clean Power Plan should the 
Supreme Court stay be lifted and the rule remain. As a matter 
of fact, even if the stay of the Clean Power Plan is lifted, 
I'm concerned that Illinois will fail to meet the plan even 
though the state may do everything possible in its power to 
meet it.
    Does this news concern you, Administrator?
    Ms. McCarthy. It certainly is an issue that we'd like and 
be open to working with the state at any time on. I think we 
well knew that there are many older nuclear power plants that 
right now are not called upon regularly to generate, so the 
closure of those facilities will have to be considered by the 
states, and we made that pretty clear. But I do not think that 
we have made the Clean Power Plan standards so challenging that 
states cannot address the changing circumstances.
    Mr. Hultgren. That's not what we're hearing from Illinois, 
but let me ask you, how did EPA take into account existing 
nuclear power when designing the mandates you're sending to the 
states for carbon emission reduction? Seems like we're being 
penalized for being ahead of the curve.
    Ms. McCarthy. No. Actually--well, I don't believe we 
considered it to be penalized, but we were looking for were 
reductions that were achievable on a baseline of 2012. If those 
were producing electricity, we included those in the baseline. 
If they were new facilities, which there are some new nuclears 
being constructed, those would certainly go as counting towards 
reductions that would be achievable under the law that would be 
included or compliance purposes.
    Mr. Hultgren. It seems like the goal again of what you've 
stated of, you know, reducing carbon emission, exactly the 
opposite is going to be happening with potential closure of 
these Illinois plants plus certainly the loss of a significant 
number of jobs. And again, this is bipartisan. This isn't a 
Republican issue, it's not a Democratic issue. It was split 
exactly 50/50, Members from Illinois on both sides of the aisle 
concerned about that.
    Are you concerned what's happening in Illinois may happen 
in other states, making it more difficult to comply with the 
plan?
    Ms. McCarthy. Sir, again, we made the plan to be 
extraordinarily flexible to deal with things on an individual 
state basis, regionally, nationally----
    Mr. Hultgren. Well, let's--can you get into specifics on 
that? What flexibilities specifically will states have in this 
specific kind of incident? So these two plants in Illinois, 
what specific flexibility will they have to be able to remain 
and continue to provide great service? Illinois is again one of 
the leaders in this field, very successfully so. What 
flexibility is in the plan?
    Ms. McCarthy. I can't say I know all of the circumstances 
here, sir, but I do know that--my understanding is, there was a 
lot of concern about nuclear facilities potentially being 
closed. There was a lot of discussion about individual states 
taking action to keep them open, to support upgrades and needed 
construction at those facilities to allow them to stay open for 
certain longer periods. But those are all individual state 
decisions that get made in the individual market. I don't think 
we should suggest that the Clean Power Plan is going to solve 
those problems prematurely because there's no compliance window 
until beginning in 2022----
    Mr. Hultgren. Well, you mentioned there is flexibility 
there.
    Ms. McCarthy. There is.
    Mr. Hultgren. We're just not seeing it, and there's great 
concern. Again, both sides of the aisle have grave concern of 
negative impacts, exactly the opposite of what you're trying to 
accomplish.
    Ms. McCarthy. Can I just----
    Mr. Hultgren. I only have one minute left. Let me--have you 
requested any legal analysis to ensure that the agency has the 
legal authority to pursue and expend resources on regulatory 
actions and implementation of the Clean Power Plan while a stay 
has been issued?
    Ms. McCarthy. We have certainly been consulting in close 
coordination with the Department of Justice to make sure that 
we fully comply with the stay, and we are fully complying with 
the stay.
    Mr. Hultgren. The question was, have you received any legal 
analysis to ensure that the agency has the legal authority to 
pursue and expend resources on regulatory actions and 
implementation while the stay is in? So it's not complying with 
the stay, it's----
    Ms. McCarthy. We are not implementing the rule or spending 
resources to implement the rule.
    Mr. Hultgren. Are you moving forward with model trading 
rules?
    Ms. McCarthy. There's no decision that's been made. We're 
looking at----
    Mr. Hultgren. When will that decision be made?
    Ms. McCarthy. --what's appropriate and what path needs to 
be moved forward.
    Let me provide a little bit of clarity, sir, and that is 
that we are not implementing the rule. That does not mean that 
we cannot continue to support states that voluntarily want to 
keep moving forward and ask us to develop tools that would 
allow them to hit the ground running when the stay decision is 
made.
    Mr. Hultgren. As far as the model trading rule goes, 
doesn't this deprive states and other stakeholders the benefits 
of the stay by compelling participation on a matter that is 
still pending before the courts?
    Ms. McCarthy. We're not compelling anything. There is no 
implementation of the Clean Power Plan.
    Mr. Hultgren. So the model trading rules are not moving 
forward?
    Ms. McCarthy. I do not know whether we're going to move 
forward with the model trading rule. The model trading rule is 
a tool. It is not a requirement. Whether or not we move forward 
with that tool is something we'll discuss with DOJ but we will 
not risk anything that would show the court that we are doing 
anything other than fully complying with the stay.
    Mr. Hultgren. My time's expired. I yield back. Thank you, 
Mr. Chairman.
    Chairman Smith. Thank you, Mr. Hultgren, and the 
gentlewoman from Virginia, Mrs. Comstock, is recognized for her 
questions.
    Mrs. Comstock. Thank you, Mr. Chairman, and I thank you for 
convening this hearing, and it's been very interesting for me 
to hear some of the highlights from my other colleagues.
    I wanted to call attention to a decision by the EPA a few 
years ago that would have had a detrimental impact on Fairfax 
County, which is a significant part of my district. In 2011, 
the EPA attempted to regulate water by considering the 
stormwater runoff from a local creek as a pollutant, so the EPA 
was--you're going to regulate the stormwater runoff, and when 
this new regulation was first released, officials from Virginia 
Department of Transportation estimated the cost of compliance 
would have been $70 million for the commonwealth. It would have 
had to do a lot of structural purchases and new management 
structures. In addition, Fairfax County officials said they 
would have to adopt costly and impractical new standards to 
reduce stormwater runoff, which would have at least cost the 
county $300 million and up to $500 million according to our 
county officials. So I can imagine $500 million is a pretty 
huge budget in a county budget. Just to give you an idea, our 
school budget in 2012 around this time frame was $2.2 billion, 
so that would have been almost a quarter of the school budget 
that would have been required to divert to these regulations.
    In this instance, and I would like to highlight, it was a 
Democrat-controlled county. I think only a couple of 
supervisors who are even Republican there. But they teamed up 
with our then-Republican, an arch conservative attorney 
general, and you know, at the time, the Democrat chairman said, 
you know, a lot of people were scratching their heads over that 
but she said we're willing to spend money to protect our 
watersheds, our drinking water and the Chesapeake Bay but we 
want to make sure the money is well spent. In this case, she 
said the EPA's rule would've done nothing to help the 
environment because they were already doing things that were 
going to work better than the rules that were going to cost us 
up to $500 million.
    Fortunately in that lawsuit, we did prevail. Fairfax County 
prevailed, the state prevailed, and I appreciate that the EPA 
did not decide to appeal that case. But, you know, in sitting 
and listening here today, we're hearing so many times where 
this is costing our local communities. I mean, while I 
appreciate my county didn't have to spend $300 to $500 million 
and cut into budget and muscle and firefighters and police and 
all those other things, they certainly did have to cut into 
their budgets to take those lawsuits as did the state, 
certainly a lot less than $300 to $500 million.
    But when you have things like this, and fortunately, it was 
Fairfax County who did this, who had the resources to bring 
that lawsuit. You know, another county might not have those 
kind of resources. I mean, do you look at that kind of impact 
and the economic impact when you're doing this, and what would 
you tell a county when it was going to cost them $500 million 
but didn't have the resources to sue the EPA and prevail the 
way they did?
    Ms. McCarthy. Well, Congresswoman, I don't know the exact 
rules that you're talking about or a decision that was in 
dispute. You know, we do our best to make sure that we are 
considering the individual circumstances of states and 
communities. We actually have policies in place which guide us 
in doing that when we're dealing with----
    Mrs. Comstock. Well, in this case, the judge said you are 
overreaching your authority, and I think the fact that EPA did 
not appeal probably was a recognition of that, but 
unfortunately, not everyone can take those actions. So this 
kind of overreaching, you know, what does the county that can't 
afford to deal with your overreaching to do?
    Ms. McCarthy. Well, I don't know the circumstances. I 
apologize for that, but I'm not aware of the circumstances that 
you're talking about so I can't really speak to it directly.
    Mrs. Comstock. Well, I certainly think these kind of costs, 
and I think all of my colleagues have highlighted these very 
well, have a dramatic impact on local budgets and oftentimes 
local budgets--and we're talking schools. When you're talking a 
county and you come in and do that, you're talking about 
cutting our schools, unless you have any ideas. I mean, when 
half of a county's budget, sometimes more--you know, in Loudoun 
County, it's higher than half. So if you'd gone in and done the 
same in that county, it would have cut even more.
    So I'd like you to, when you're looking at these things, 
understand the limited budgets you're dealing with. It's asking 
our firefighters, our teachers, our local officials to say 
we're going to cut you for something that our local Democrat 
chairman of the board of supervisors said did nothing to help 
the environment. Nothing. That's a big cost to do nothing to 
help the environment when we already had some very good 
practices in place.
    Thank you, and I yield back.
    Chairman Smith. Thank you, Mrs. Comstock.
    And I believe that is all the members who are present and 
they have asked their questions, so that takes us to the end of 
our hearing today.
    And Administrator McCarthy, you have reassured several 
members today that you will produce the documents and data that 
we have requested. I hope you meant that because we have a lot 
of requests that are still outstanding. So I look forward to 
your responsiveness in that regard.
    Thank you for being here today. I appreciate your taking 
the time to testify, and we will be following up with some of 
our questions as well.
    Ms. McCarthy. Thank you.
    Chairman Smith. Thank you for being here.
    Ms. Johnson. Mr. Chairman?
    Chairman Smith. And the gentlewoman from Texas has request 
that some items be made a part of the record.
    Ms. Johnson. Yes.
    Chairman Smith. And she is recognized for that purpose.
    Ms. Johnson. Thank you very much.
    I ask unanimous consent to make the NAACP letter a part of 
the record, and simply want to thank the Administrator for 
being here today and being questioned for two and a half hours.
    Chairman Smith. Without objection, those letters will be 
made a part of the record.
    [The information appears in Appendix]
    Chairman Smith. Thank you.
    Ms. McCarthy. Thank you.
    [Whereupon, at 3:35 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by The Hon. Gina McCarthy


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                              Appendix II

                              ----------                              


                   Additional Material for the Record



              Letter submitted by Representative Mo Brooks


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



           Documents submitted by Representative Gary Palmer


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




           Letter submitted by Representative Bruce Westerman


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             Letter submitted by Representative Lee Abraham


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



           Letter submitted by Representative Randy Hultgren

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             Letters submitted by Committee Ranking Member
                         Eddie Bernice Johsnon


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



              Letters submitted by Chairman Lamar S. Smith


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
